<html>
<title> - CRITICAL MISSION: FORMER ADMINISTRATORS ADDRESS THE DIRECTION OF THE EPA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
 CRITICAL MISSION: FORMER ADMINISTRATORS ADDRESS THE DIRECTION OF THE 
                                  EPA

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2019

                               __________

                           Serial No. 116-42
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                        
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-572 PDF          WASHINGTON : 2020                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair
JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts, Vice Chair        MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     2
    Prepared statement...........................................     4
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12

                               Witnesses

Gina McCarthy, Former Administrator (2013-2017), Environmental 
  Protection Agency..............................................    14
    Prepared statement...........................................    17
Christine Todd Whitman, Former Administrator (2001-2003), 
  Environmental Protection Agency................................    24
    Prepared statement...........................................    26
William K. Reilly, Former Administrator (1989-1993), 
  Environmental Protection Agency................................    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................   120
Lee M. Thomas, Former Administrator (1985-1989), Environmental 
  Protection Agency..............................................    46
    Prepared statement...........................................    49
    Answers to submitted questions...............................   123

                           Submitted Material

Article of June 8, 2019, ``White House Tried to Stop Climate 
  Science Testimony, Documents Show,'' by Lisa Friedman, New York 
  Times, submitted by Ms. Schakowsky.............................    82
Testimony, original, of Dr. Rod Schoonover before the House 
  Permanent Select Committee on Intelligence, June 5, 2019, 
  submitted by Ms. Schakowsky....................................    84
Testimony, corrected, of Dr. Rod Schoonover before the House 
  Permanent Select Committee on Intelligence, June 5, 2019, 
  submitted by Ms. Schakowsky....................................    96
Letter of February 13, 2019, from Mr. Walden and Mr. Shimkus to 
  Mr. Pallone and Mr. Tonko, submitted by Mr. Walden.............   109
Letter of April 8, 2019, from Carol Browner, EPA Administrator, 
  1993-2001, et al., to Mr. Pallone and Mr. Walden, submitted by 
  Ms. DeGette....................................................   110
Letter of June 10, 2019, from Mary B. Rice, Chair, Environmental 
  Health Policy Committee, American Thoracic Society, et al., to 
  Ms. DeGette and Mr. Guthrie, submitted by Mr. Ruiz.............   113


 CRITICAL MISSION: FORMER ADMINISTRATORS ADDRESS THE DIRECTION OF THE 
                                  EPA

                              ----------                              


                         TUESDAY, JUNE 11, 2019

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Diana DeGette (chair of the subcommittee) presiding.
    Members present: Representatives DeGette, Schakowsky, 
Kennedy, Ruiz, Castor, Sarbanes, Tonko, Clarke, Pallone (ex 
officio), Guthrie (subcommittee ranking member), Burgess, 
McKinley, Brooks, Mullin, Duncan, and Walden (ex officio).
    Also present: Representatives McNerney, Soto, and 
O'Halleran.
    Staff present: Kevin Barstow, Chief Oversight Counsel; 
Billy Benjamin, Systems Administrator; Jeffrey C. Carroll, 
Staff Director; Waverly Gordon, Deputy Chief Counsel; Tiffany 
Guarascio, Deputy Staff Director; Judy Harvey, Counsel; Chris 
Knauer, Oversight Staff Director; Brendan Larkin, Policy 
Coordinator; Jourdan Lewis, Policy Analyst; Perry Lusk, GAO 
Detailee; Jon Monger, Counsel; Elysa Montfort, Press Secretary; 
Alivia Roberts, Press Assistant; Tim Robinson, Chief Counsel; 
Jen Barblan, Minority Chief Counsel, Oversight and 
Investigations; Mike Bloomquist, Minority Staff Director; Jerry 
Couri, Minority Deputy Chief Counsel, Environment and Climate 
Change; Melissa Froelich, Minority Chief Counsel, Consumer 
Protection and Commerce; Brittany Havens, Minority Professional 
Staff Member, Oversight and Investigations; Peter Kielty, 
Minority General Counsel; Bijan Koohmaraie, Minority Counsel, 
Consumer Protection and Commerce; Brandon Mooney, Minority 
Deputy Chief Counsel, Energy; Brannon Rains, Minority Staff 
Assistant; Zach Roday, Minority Director of Communications; and 
Alan Slobodin, Minority Chief Investigative Counsel, Oversight 
and Investigations.
    Ms. DeGette. The Subcommittee on Oversight and 
Investigations hearing will now come to order.
    Today, we are holding a hearing entitled ``Critical 
Mission: Former Administrators Address the Direction of the 
EPA.'' The purpose of today's hearing is to address the mission 
and future of the U.S. Environmental Protection Agency, and I 
particularly want to thank all of our former Administrators for 
joining us today.
    You may see an empty chair. That's not for effect. That's 
because Administrator McCarthy is trying to make her way here. 
She has had now three planes canceled because of mechanical 
difficulties this morning.
    And so, with the assent of the minority, what we will do is 
the Members will have their opening statements and then we will 
recess until Administrator McCarthy gets here, which should be 
fairly soon. And I think what we will do, we will probably 
recess until 11 o'clock to be respectful to the Members.
    And so the Chair now is going to recognize herself for 
purposes of an opening statement.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    As I said, I am particularly pleased to welcome our four 
former EPA Administrators back to the Energy and Commerce 
Committee this morning.
    I know at least Administrator Whitman appeared in front of 
this committee when I was in my early days on this committee. 
The other two, I fear, were before my time. But I am happy to 
have all of you here today.
    I think it's really noteworthy that we are having a hearing 
in the House with four former EPA Administrators testifying 
together on the future of the EPA.
    All of these four Administrators have dedicated their 
careers both before and after their service to leading on 
environmental issues, serving in both Democratic and Republican 
administrations going all the way back to President Reagan. 
They worked tirelessly to ensure that the EPA, working with its 
partners both here in the U.S. and abroad, tackled the 
environmental challenges of the day head on.
    There has never been a more important time for our 
environment and our planet. Communities across the country are 
facing grave environmental threats. Homes and businesses are 
being lost to historic flooding, hurricanes, and wildfires.
    Our oceans are rising, threatening coastal communities. Our 
coral reefs are disappearing, along with vast swaths of forest 
and habitat across the globe, and we are seeing biodiversity 
facing yearly declines.
    Across the globe and here in the U.S., we are seeing record 
temperatures year after year, increasing the risk of severe 
agricultural drought and leading to deadly heat waves.
    In my home State of Colorado, we have seen once-year-round 
glaciers retreat while wildfire season only seems to grow in 
length.
    And just last week, a new report by the National Oceanic 
and Atmospheric Administration found that carbon dioxide levels 
in the Earth's atmosphere hit a record level and, according to 
the Intergovernmental Panel on Climate Change, current 
CO<INF>2</INF> levels are likely at the highest level in human 
history.
    Let me say that again. The levels are currently at the 
highest level in human history. Now, more than ever, we need 
environmental leadership that rises to the challenges of our 
time.
    We need an EPA that will strengthen existing efforts to 
fight climate change, because we know that States, businesses, 
and cities cannot address this crisis on their own.
    We need an EPA that's committed to protecting public health 
and the environment, and we need an agency that can help the 
U.S. lead on the international stage.
    The global issues we are facing today not only threaten our 
quality of life but increasingly are becoming national security 
issues.
    As the Administrators here today know all too well, strong 
environmental leadership requires an EPA with unimpeachable 
scientific credibility. The EPA must constantly be 
strengthening its science to make sure that the policies are 
driven by science and not the other way around.
    Strong environmental leadership also means an EPA that's 
transparent and accountable to the public so that Americans can 
understand and participate in the processes that affect 
contamination in their communities, and environmental 
leadership also means holding polluters accountable by 
enforcing laws that are already on the books.
    Instead of leading on human health and environmental 
protection, the track record of the current EPA has been 
abysmal. This EPA has abandoned action on air quality and 
climate change.
    It has done away with sensible carbon reduction limits and 
automobile standards that would save consumers thousands of 
dollars at the pump.
    It attacked mercury and air toxic standards that protect 
communities from deadly mercury and other hazardous air 
pollution, which even industry supports leaving in place.
    And the EPA has ceded global leadership and effectively 
been forced off the world's stage. And now, again, the Trump 
administration has proposed cutting the funding of the EPA.
    Of course, EPA's talented career staff heard this message, 
too. In the first 18 months of the Trump administration, we saw 
over 1,600 career employees leave the EPA, resulting in 
staffing levels not last seen in decades.
    And against this backdrop, seven former EPA Administrators 
who served under Democratic and Republican administrations sent 
this committee a letter calling for renewed oversight of the 
Agency.
    Their message of unity and bipartisan support was here. 
Four of these Administrators are sitting right here today, and 
so we can learn what happened with them when they were at the 
Agency.
    The committee continues to conduct oversight on a broad 
range of EPA issues, including rollbacks of clean air and 
climate protections, the drop in EPA enforcement activity, 
drinking water safety, EPA's attack on science, and ethical 
issues.
    Now is the time for a strong and renewed EPA that will 
protect American communities from the many environmental 
threats of our time, and I am pleased to hear what additional 
oversight that those here today think that we can have.
    So I hope this morning our former Administrators will 
discuss these serious issues facing EPA.
    [The prepared statement of Ms. DeGette follows:]

                Prepared Statement of Hon. Diana DeGette

    Today, we continue the Subcommittee on Oversight and 
Investigations' long record of oversight of the U.S. 
Environmental Protection Agency.
    I am particularly pleased to welcome four former EPA 
Administrators back to the Energy and Commerce Committee this 
morning.
    This is an important and timely moment, and it is 
particularly noteworthy to have a hearing in the House with 
four former EPA Administrators testifying together on the 
mission of the Agency.
    Administrator McCarthy, Governor Whitman, Administrator 
Reilly, and Administrator Thomas have dedicated their careers 
to leading on environmental issues, serving in both Democratic 
and Republican administrations going back to President Reagan.
    They worked tirelessly to ensure that EPA, working with its 
partners both here in the United States and abroad, tackled the 
environmental challenges of the day head on.
    There has never been a more important time for our 
environment and our planet.
    Communities across the country are facing grave 
environmental threats--homes and businesses are being lost to 
historic flooding, hurricanes, and wildfires. Our oceans are 
rising, threatening coastal communities. Our coral reefs are 
disappearing along with vast swaths of forests and habitat 
across the globe, and we are seeing biodiversity facing yearly 
declines. Across the globe and here in the U.S., we are seeing 
record temperatures year after year, increasing the risk of 
severe agricultural drought and leading to deadly heat waves. 
My State of Colorado has seen once year-round glaciers 
retreating while its wildfire season seems only to grow in 
length.
    And just last week, a new report by the National Oceanic 
and Atmospheric Administration found that carbon dioxide levels 
in Earth's atmosphere recently hit a record high. And according 
to the Intergovernmental Panel on Climate Change, current 
CO<INF>2</INF> levels are likely at the highest level in human 
history. Let me say that again:the highest level in human 
history.
    Now more than ever, we need environmental leadership that 
rises to the challenges of our time.
    We need an EPA that will strengthen existing efforts to 
fight climate change, because we know that States, businesses, 
and cities cannot address this crisis on their own.
    We need an EPA that is committed to protecting public 
health and the environment and we need an agency that can help 
the U.S. lead on the international stage. The global issues we 
are confronting today, not only threaten our quality of life 
but increasingly are becoming national security concerns.
    As the Administrators with us this morning know all too 
well, strong environmental leadership requires an EPA with 
unimpeachable scientific credibility. EPA must constantly be 
strengthening its science to ensure its policies are driven by 
science, and not the other way around.
    Strong environmental leadership also means an EPA that is 
transparent and accountable to the public, so that Americans 
can understand and participate in the processes that affect 
pollution in their own communities.
    Environmental leadership also means holding polluters 
accountable by enforcing laws that are already on the books.
    Instead of leading on human health and environmental 
protection, the track record of the current EPA for the last 2 
years has been abysmal. The current EPA has abandoned action on 
air quality and climate change. It has done away with sensible 
carbon reduction limits and automobile standards that would 
save consumers thousands of dollars at the pump. It has 
attacked mercury and air toxic standards that protect 
communities from deadly mercury and other hazardous air 
pollution--which even industry supports leaving in place.
    And EPA--once regarded as the international leader on 
environmental protection--has ceded global leadership and has 
effectively been forced off the world stage.
    And, year after year, the Trump administration has proposed 
extreme cuts to EPA's funding, sending a clear message that 
President Trump intends to make good on his campaign promise to 
break EPA into ``little tidbits.''
    Of course, EPA's talented career staff heard this message, 
too. In the first 18 months of the Trump administration--as 
President Trump was filling EPA political appointments with 
former industry lawyers and lobbyists--we saw over 1,600 career 
employees leave EPA, resulting in staffing levels not seen in 
decades.
    Against this backdrop, in April of this year, seven former 
EPA Administrators who served under Democratic and Republican 
administrations sent this committee a letter calling for 
renewed oversight of the Agency.
    Their message of unity and bipartisan support was clear, 
and we are fortunate to have four here today, so we can learn 
from their years of wisdom on how EPA should be run.
    This committee continues to conduct oversight on a broad 
range of EPA issues, including rollbacks of key clean air and 
climate protections, the dramatic drop in EPA enforcement 
activity, drinking water safety, EPA's attack on science, and 
ethical issues at EPA.
    Now is the time for a strong and renewed EPA that will 
protect American communities from the many environmental 
threats of our time, and we are pleased to hear what additional 
oversight those that are here today believe is still needed at 
the Agency.
    So, I hope this morning our former Administrators will 
discuss the serious challenges facing EPA, and how the Agency 
and Congress can best address the urgent environmental issues 
of our time, now and going forward.

    Ms. DeGette. And I am very pleased to now recognize the 
ranking member, Mr. Guthrie, for 5 minutes for purposes of an 
opening statement.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Guthrie. Thank you, Chair DeGette, for holding this 
hearing to focus on the future of the U.S. Environmental 
Protection Agency, and thank all of our witnesses for taking 
the time to be here today.
    Today's hearing is an important discussion for us to have 
in order to build on the important work that the Energy and 
Commerce Committee has done, especially in the last Congress.
    We held hearings focused on reducing carbon emissions, 
boosting renewable energy options, including emissions-free 
nuclear power, modernizing our power generation, and empowering 
industry to lead the way through innovation.
    Additionally in the 115th Congress, the committee led 
legislative efforts on numerous bills, including the 
reauthorization of the Brownfields program, nuclear energy 
innovation and modernization, hydropower, and increasing 
compliance for drinking water infrastructure, which all passed 
the House and was signed into law.
    Further, there were additional bills that passed the House, 
including ozone standards, energy-efficient government 
technology, advanced nuclear technology, new source performance 
standards, and nuclear waste policy, just to name a few.
    There are exciting new ideas in sight, like carbon capture 
technology that can capture up to 90 percent of the carbon 
dioxide emissions that come from the use of fossil fuels and 
power generation and other industrial sources.
    This technology means that the carbon dioxide emissions do 
not even make it to the atmosphere to begin with. Since fossil 
fuels will be used to power our country for decades to come, 
the EPA should be working with its other Federal, State, and 
local partners to help speed the way for innovative new 
technologies such as this.
    I want to be clear. We all want clean air, clean water, and 
environmental protection. But those things do not have to be 
achieved at the expense of jobs, prosperity, and national 
security.
    We are ready and willing to continue to have serious 
solutions-oriented discussions about how to address issues 
facing our public health and environment such as climate change 
risks through American innovation rather than a massive 
takeover of the Federal Government.
    In addition to this committee evaluating ways for U.S. to 
be leaders in the environmental protection space, today we will 
hear from Members and the witnesses about concerns regarding 
the current direction of the EPA.
    While there may be differences of opinion on how to best 
approach some of the issues facing the Agency today, it is not 
out of the desire to have a polluted environment.
    Let us not forget the EPA's nearly 50 years of age. It 
might be appropriate to think beyond the model of the last 5 
decades to contemplate an agency poised to tackle problems of 
today and tomorrow, not armed for those of yesterday.
    I think it is an important opportunity for this committee 
to broadly examine structural and legal areas where Congress 
may need to provide the Agency with clearer direction on its 
responsibilities.
    That is, after all, one of the main functions of 
congressional oversight. Additionally, I am expecting that we 
will hear concerns from the witnesses regarding changes to 
regulations and how the ebb and flow of regulations from 
administration to administration could have a negative impact 
on industry.
    I think that this highlights the importance of bipartisan 
policy solutions, consistently transparent administrative 
practice, and Agency regulations that appropriately balance the 
goals of regulation with the cost of implementation.
    Finally, it is no secret that much of rural America views 
the EPA with--views it with distrust, and has for quite some 
time.
    Many Members of Congress have heard stories from their 
district about family farmers and other small businesses 
attempting to comply with Federal environmental regulations and 
feeling that the EPA was not a helpful partner.
    I am particularly interested in learning from our witnesses 
today about what can be done to earn back the trust of these 
communities.
    Ultimately, to truly succeed we need stronger local, State, 
Federal, Tribal, and private partnerships where we can team up 
and leverage all available resources to accomplish the goals of 
cleaner water, air, and soil.
    I hope that we can have a thorough and honest discussion to 
inform the future of the EPA, its mission, and how we can best 
protect the environment.
    I thank our witnesses for being here today and sharing 
their perspectives, giving each of their experiences as former 
EPA Administrators.
    And I yield back.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared Statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this hearing to focus 
on the future of the U.S. Environmental Protection Agency.
    Today's hearing is an important discussion for us to have 
in order to build on the important work that the Energy and 
Commerce Committee has done, especially in the last Congress. 
We held hearings focused on reducing carbon emissions, boosting 
renewable energy options including emissions-free nuclear 
power, modernizing our power generation, and empowering 
industry to lead the way through innovation.
    Additionally, in the 115th Congress, this committee led the 
legislative efforts on numerous bills, including the 
reauthorization of the Brownfields program, nuclear energy 
innovation and modernization, hydropower, and increasing 
compliance for drinking water infrastructure, which all passed 
the House and were signed into law. Further, there were 
additional bills that passed the House, including ozone 
standards, energy efficient government technology, advanced 
nuclear technology, new source performance standards, and 
nuclear waste policy, to name a few.
    There are exciting new ideas in sight, like carbon capture 
technology. Carbon capture is a technology that can capture up 
to 90 percent of the carbon dioxide emissions that come from 
the use of fossil fuels in power generation and other 
industrial sources. This technology means that the carbon 
dioxide emissions do not even make it to the atmosphere to 
begin with. Since fossil fuels will be used to power our 
country for decades to come, the EPA should be working with its 
other Federal, State, and local partners to help speed the way 
for innovative new technologies such as this.
    I want to be clear--we all want clean air, clean water, and 
environmental protection; but those things do not have to be 
achieved at the expense of jobs, prosperity, and national 
security. We are ready and willing to continue to have serious, 
solutions-oriented discussions about how to address issues 
facing our public health and environment, such as climate 
change risks, through American innovation, rather than a 
massive takeover by the Federal Government.
    In addition to this committee evaluating ways for the U.S. 
to be leaders in the environmental protection space, today we 
will hear from both Members and the witnesses about concerns 
regarding the current direction of the EPA. While there may be 
a difference of opinion on how best to approach some of the 
issues facing the Agency today, it is not out of a desire to 
have a polluted environment.
    Let's not forget that EPA is nearly 50 years of age. It 
might be appropriate to think beyond the model of the last 5 
decades to contemplate an agency poised to tackle the problems 
of today and tomorrow, not armed for those of yesterday. I 
think it is an important opportunity for this committee to 
broadly examine structural and legal areas where Congress may 
need to provide the Agency with clearer direction on its 
responsibilities. That is, after all, one of the main functions 
of congressional oversight.
    Additionally, I am expecting that we will hear concerns 
from the witnesses regarding changes to regulations and how the 
ebb and flow of regulations from administration to 
administration could have a negative impact on industry. I 
think that this highlights the importance of bipartisan policy 
solutions, consistently transparent administrative practice, 
and Agency regulations that appropriately balance the goals of 
a regulation with the costs of implementation.
    Finally, it is no secret that much of rural America views 
the EPA with distrust, and has for quite some time. Many 
Members of Congress have heard stories from their districts 
about family farmers and other small businesses attempting to 
comply with Federal environmental regulations, and feeling that 
the EPA was not a helpful partner. I am particularly interested 
in learning more from our witnesses today about what can be 
done to earn back the trust of these communities. Ultimately, 
to truly succeed we need stronger local, State, Federal, 
Tribal, and private partnerships where we can team up and 
leverage all available resources to accomplish the goals of 
cleaner water, air, and soil.
    I hope that we can have a thorough and honest discussion to 
inform the future of the EPA, its mission, and how we can best 
protect the environment. I thank our witnesses for being here 
today and sharing their perspectives given each of their 
experiences as former EPA Administrators, and I yield back.

    Ms. DeGette. The Chair now recognizes the chairman of the 
full committee, Mr. Pallone, for 5 minutes for purposes of an 
opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair, and welcome to our 
former EPA Administrators. We really appreciate your being here 
today.
    I think we are going to have four--because I think Gina's 
on her way--who served under four different Presidents, and 
obviously you're uniquely qualified to share your opinions with 
us on President Trump's EPA and whether it's fulfilling the 
Agency mission of protecting human health and the environment.
    I want to thank you for your efforts and the actions of 
previous administrations, both Republican and Democrat. Because 
of them, our air and water is cleaner, our land is better 
protected, and that's true not just here in the United States 
but around the world as other countries followed America's 
example of strong environmental leadership.
    EPA's record of accomplishment over the years has shown 
that protecting the environment and public health is not only 
good policy but also good for the economy.
    This is a challenging moment in history. The United States 
must decide whether we are going to sit on the sidelines or do 
everything we can to combat climate change and a host of other 
environmental threats facing our planet.
    You don't have to look too far to see the risks communities 
across America are facing: historic floods threatening farms 
and cities in the Midwest; a permanent wildfire season that now 
regularly decimates vast amounts of land in the West, 
destroying homes and businesses; rising oceans making coastal 
communities even more vulnerable to extreme weather events; and 
record high temperatures year after year, which can be deadly, 
particularly for vulnerable populations.
    Governor Whitman and I saw firsthand the tragic devastation 
of Superstorm Sandy in New Jersey in 2012. I had never seen 
worse storm damage in our area in my lifetime.
    For many, the storm was the worst-case scenario. Lives were 
lost. Businesses and homes were destroyed. As Governor Whitman 
points out in her testimony, according to a recent report, 35 
U.S. cities could be uninhabitable by the end of this century 
because of climate change, and 9 of those cities are in our 
State, New Jersey.
    Just a week ago, the National Oceanographic and Atmospheric 
Administration reported that the Earth's levels of carbon 
dioxide have now jumped to a record high.
    More than ever before we need a strong EPA that can protect 
public health and the environment against today's many threats 
and help lead this effort on the international stage.
    Unfortunately, we have seen over and over again that the 
Trump administration is failing to rise to this challenge. In 
the past 2\1/2\ years we have seen our country abdicate our 
role as a global leader on meaningful climate action and ignore 
consensus science that humans are now a major driver of global 
warming.
    We have seen the Trump EPA roll back commonsense limits on 
pollution from power plants, attack protections which keep 
American families safe from mercury and other toxic pollution.
    The Trump administration has also moved to weaken 
successful automobile efficiency standards, a decision that 17 
of the world's largest automakers just last week threatened to 
cut--they say threatens to cut their profits and produce 
untenable instability in the manufacturing sector, and these 
actions seriously undermine our ability to reduce greenhouse 
gas pollution, making the climate crisis even worse.
    We have also seen the Trump administration propose extreme 
cuts, in my opinion, to the EPA's budget, which would eliminate 
key Agency programs, cut money for States and Tribes, and 
eviscerate the Agency's science apparatus.
    Now, fortunately, Congress, on a bipartisan basis, has not 
accepted those cuts. And not only is the Trump EPA sidelining 
science, in some cases it's purging it altogether.
    As these events unfolded at EPA in April, the committee 
received a letter from seven former EPA Administrators who 
served under Presidents of both parties as far back as 
President Nixon.
    The former Administrators, four of whom are with us this 
morning, urged oversight of EPA, offered to be a resource, and 
affirmed the vital bipartisan mission of the EPA, and during 
this Congress the committee has already conducted oversight on 
a range of key issues affecting EPA, including rollbacks of 
clean-air and climate protections, continued attacks on 
science, lack of enforcement of environmental laws, failure to 
protect workers from chemical risks, and the impact of the 
Trump administration's drastic proposed cuts to EPA's budget.
    And so we are looking forward now to hearing from this 
distinguished bipartisan panel. The four former Administrators 
with us this morning truly know what is at stake, because they 
were there, and how to accomplish EPA's mission.
    So more than ever our communities, families, and planet 
need a robust EPA that is fully committed to protecting human 
health and the environment, and we appreciate all the fact 
that, you know, what you did in your distinguished service and 
want to see what lessons there are to tell us for today.
    Thank you, and I yield back, Madam Chair.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Good morning. I am very pleased to welcome four former EPA 
Administrators who served four different Presidents to our 
hearing today. You are all uniquely qualified to share your 
opinions with us on President Trump's EPA and whether it is 
fulfilling the Agency mission of protecting human health and 
the environment.
    Thanks to your efforts and the actions of previous 
administrations--both Republican and Democrat--our air and 
water is cleaner, and our land is better protected. And that is 
true not just here in the United States, but around the world, 
as other countries followed America's example of strong 
environmental leadership.
    EPA's record of accomplishments over the years has shown 
that protecting the environment and public health is not only 
good policy, but also good for the economy.
    This is a challenging moment in history. The United States 
must decide whether we are going to sit on the sidelines or do 
everything we can to combat climate change and a host of other 
environmental threats facing our planet.
    You don't have to look too far to see the risks communities 
across America are facing. Historic floods threatening farms 
and cities in the Midwest. A permanent wildfire season that now 
regularly decimates vast amounts of land in the West, 
destroying homes and businesses. Rising oceans making coastal 
communities even more vulnerable to extreme weather events. And 
record high temperatures year after year, which can be deadly, 
particularly for vulnerable populations.
    Governor Whitman and I saw firsthand the tragic devastation 
of Superstorm Sandy in New Jersey in 2012. I had never seen 
worse storm damage in our area in my lifetime. For many, the 
storm was a worst-case scenario: lives were lost, businesses 
and homes destroyed.
    As Governor Whitman points out in her testimony, according 
to a recent report, 35 U.S. cities could be uninhabitable by 
the end of this century because of climate change, and 9 of 
those cities are in New Jersey.
    And, just a week ago, the National Oceanic and Atmospheric 
Administration reported that the Earth's levels of carbon 
dioxide have now jumped to a record high.
    More than ever before, we need a strong EPA that can 
protect public health and the environment against today's many 
threats and help lead this effort on the international stage.
    Unfortunately, we have seen over and over again that the 
Trump administration is failing to rise to this challenge. In 
the past 2\1/2\ years, we have seen our country abdicate our 
role as a global leader on meaningful climate action and ignore 
consensus science that humans are now a major driver of global 
warming.
    We've seen the Trump EPA roll back commonsense limits on 
pollution from power plants, and attack protections which keep 
American families safe from mercury and other toxic pollution. 
The Trump administration has also moved to weaken successful 
automobile efficiency standards--a decision that 17 of the 
world's largest automakers said last week threatens to cut 
their profits and produce ``untenable'' instability in the 
manufacturing sector. These actions seriously undermine our 
ability to reduce greenhouse gas pollution, making the climate 
crisis even worse.
    We have also seen the Trump administration propose extreme 
cuts to EPA's budget, which would eliminate key Agency 
programs, cut money for States and Tribes, and eviscerate the 
Agency's science apparatus.
    And not only is the Trump EPA sidelining science; in some 
cases, it's purging it altogether.
    As these events unfolded at EPA, in April, the committee 
received a letter from seven former EPA Administrators, who 
served under Presidents of both parties as far back as 
President Nixon. The former Administrators--four of whom are 
with us this morning--urged oversight of EPA, offered to be a 
resource, and affirmed the vital bipartisan mission of the 
Agency.
    During this Congress, the committee has already conducted 
oversight on a range of key issues affecting EPA, including 
rollbacks of key clean-air and climate protections, continued 
attacks on science, lack of enforcement of environmental laws, 
failure to protect workers from chemical risks, and the impact 
of the Trump administration's drastic proposed cuts to EPA's 
budget. And we now look forward to hearing from this 
distinguished bipartisan panel. The four former Administrators 
with us this morning truly know what is at stake and how to 
accomplish EPA's mission.
    More than ever, our communities, families, and planet need 
a robust EPA that is fully committed to protecting human health 
and the environment.

    Ms. DeGette. The Chair now recognizes the ranking member of 
the full committee, Mr. Walden, for 5 minutes for purposes of 
an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair.
    Regardless of whether you're in government or not, we must 
always keep in mind the EPA's core mission tasked by Congress 
in statute: clean air for Americans to breathe, safe water for 
our citizens to drink, soils free from pollution. That is the 
core mission.
    Too often people fall into the trap of assuming a clean 
environment is incompatible with economic growth and job 
creation. But we can and must have both.
    We need commonsense regulations that protect the public, 
actually clean up the environment, and do so in a way that 
doesn't unnecessarily suffocate the economy or fail to consider 
the impact on American consumers and taxpayers.
    To this end, the EPA should focus on innovative problem 
solving and partnerships with States, Tribes, communities, the 
private sector, and other stakeholders that leverage their 
resources and enterprise.
    I anticipate much of the discussion today will focus on 
climate change and the appropriate role of the EPA in combating 
it.
    I want to be clear--climate change is real, and as I have 
stated numerous times, Republicans on this committee stand 
ready, willing, and able to work with Democrats in a bipartisan 
way to continue to tackle climate change in a prudent and 
thoughtful manner.
    I ask unanimous consent to enter in the record a February 
13th letter to Chairman Pallone and Environment and Climate 
Change Subcommittee Chairman Tonko from myself and Mr. Shimkus 
asking to do just that.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. We can and must address climate change risks 
through American innovation, conservation, as well as 
adaptation and preparation, which should be focused on 
continuing to reduce emissions, developing and exporting clean 
energy technologies, and making our communities more resilient 
by adapting what we grow and how we build.
    The EPA has an important role to play in that by collecting 
emissions information and setting meaningful standards and 
regulations within the bounds of statutory authority granted to 
the Agency by the Congress.
    We should continue to make progress on reducing global 
climate risks without adding unnecessary regulatory burdens by 
promoting policies favoring clean energy like nuclear, 
hydropower, natural gas, wind, solar, and carbon capture 
technologies, and by removing barriers to development and 
deployment of new technologies and innovation. I think we could 
all agree on that.
    Republicans have a clear record of bipartisan legislation 
from this committee to do just that. Over the past several 
Congresses we have removed regulatory barriers to new 
technological advances in power generation from hydroelectric 
power to small modular nuclear, from carbon capture and storage 
incentives to power grid reforms.
    Because innovation is where the long-term solutions to 
climate change are, we want America to lead the world in 
innovation as we always have, especially on clean energy and 
environmental cleanup.
    It also never hurts to work hard to root out unnecessary 
red tape, to provide greater regulatory transparency so that 
stakeholders, including the regulated community, better know 
what is expected of them and to promote prompt, even, and fair 
enforcement of the law.
    So let's work together as we have in the past to reduce the 
barriers to innovation, to unleash American ingenuity, to 
develop new technologies to help confront the climate and other 
environmental and public health challenges of the future.
    For example, the previous Republican-led Congresses have 
seen bipartisan responses to address contaminated drinking 
water in Flint, Michigan--need I say the EPA kind of dragged 
its feet and got that one wrong; renew important drinking water 
programs, including those to address lead pipes; reinforce the 
essential Federal/State dynamic in environmental protection; 
and update toxic chemicals review and management. Those were 
all done in a Republican-led Congress in a bipartisan way.
    Moving forward, there is much that we could do right now in 
a bipartisan way. For example, we could improve new source 
review permitting, essential to ensuring more efficient 
cleaner-operating stationary sources, and we could streamline 
the air quality standards process to ensure more effective 
implementation by States and localities.
    This hearing is also a good opportunity to discuss whether 
and how the EPA itself and its legal authority need to be 
modernized to face 21st century challenges.
    We are beginning another wildfire season in Oregon and on 
the west coast. Last summer, smoke filled the air across large 
parts of Oregon and California, giving us the worst air quality 
short of Beijing for almost a month.
    The Clean Air Act was last updated in 1990. Does this 
nearly 30-year-old statute stand up in the face of issues the 
EPA confronts today?
    I think on nearly every EPA's watch there has been failure 
to update legally mandated programs by Congress, and that's a 
question we should be asking today, as well, as we go forward. 
The EPA itself has never been authorized by Congress. Never. So 
how should we do that?
    I thank your witnesses for being here today. I know you 
each have--had difficulties on your watches, challenges on your 
watches. You always tried to do the right thing for the 
American people.
    But it's hard to always get it right. And so we want to 
work with you and with our colleagues on the other side of the 
aisle to get it right more often for the American people and do 
the right thing for our environment.
    And with that, Madam Chair, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Chair DeGette, for convening this hearing with 
four former Administrators of the EPA. I welcome our witnesses 
and this conversation about the future and direction of the 
EPA.
    Regardless of whether you are in government or not, we must 
always keep in mind that EPA's core mission, tasked by Congress 
in statute: clean air for Americans to breathe, safe water for 
our citizens to drink, and soils free from pollution.
    Too often, people fall into the trap of assuming a clean 
environment is incompatible with economic growth and job 
creation. But we can and must have both. We need commonsense 
regulations that protect the public, actually clean up the 
environment, and do so in a way that don't unnecessarily 
suffocate the economy or fail to consider the impact on 
American consumers and taxpayers. To this end, the EPA should 
focus on innovative problem solving and partnerships with 
States, Tribes, and communities, the private sector, and other 
stakeholders that leverage their resources and enterprise.
    I anticipate that much of the discussion today will focus 
on climate change and the appropriate role of the EPA in 
combating it. I want to be clear--climate change is real. And 
as I have stated numerous times, Republicans on this committee 
stand ready, willing, and able to work with Democrats in a 
bipartisan way to continue to tackle climate change in a 
prudent and thoughtful manner.
    I ask unanimous consent to enter into the record a February 
13, 2019, letter to Chairman Pallone and Environment and 
Climate Change Subcommittee Chairman Tonko from myself and Mr. 
Shimkus asking to do just that.
    We can and must address climate change risks through 
American innovation, conservation, as well as adaptation and 
preparation. We should be focused on continuing to reduce 
emissions, developing and exporting clean energy technologies, 
and making our communities more resilient by adapting what we 
grow and how we build.
    The EPA has an important role to play, by collecting 
emissions information and setting meaningful standards and 
regulations within the bounds of the statutory authority 
granted to the Agency by Congress.
    We should continue to make progress on reducing global 
climate risks without adding unnecessary regulatory burden by 
promoting policies favoring clean energy--like nuclear, 
hydropower, natural gas, wind, solar, and carbon capture, and 
removing barriers to the deployment of new technologies and 
innovation.
    Republicans have a clear record of bipartisan legislation 
from this committee to do just that. Over the past several 
Congresses, we have removed regulatory barriers to new 
technological advances in power generation, from hydroelectric 
power to small modular nuclear, from carbon capture and storage 
incentives to power grid reforms. Because innovation is where 
the long-term solutions to climate change are. We want America 
to lead the world in innovation, as we always have, especially 
on clean energy and environmental cleanup.
    It also never hurts to work hard to root out unnecessary 
red tape, to provide greater regulatory transparency so that 
stakeholders, including the regulated community, better know 
what is expected of them, and to promote prompt, even, and fair 
enforcement of the law.
    Let's work together, as we have in the past, to reduce the 
barriers to innovation and unleash American ingenuity to 
develop new technologies to help confront the climate and other 
environment and public health challenges of the future. For 
example, the previous Republican-led Congresses have seen 
bipartisan responses to address contaminated drinking water in 
Flint, renew important drinking water programs--including those 
to address lead pipes--reinforce the essential Federal/State 
dynamic in environmental protection, and update toxic chemical 
review and management.
    Moving forward, there is much that we could do right now, 
in a bipartisan way. For example, we could improve new source 
review permitting, essential to ensuring more efficient, 
cleaner operating stationary sources, and we could streamline 
the air quality standards process to ensure more effective 
implementation by States and localities.
    This hearing is also a good opportunity to discuss whether 
and how the EPA itself and its legal authority need to be 
modernized to face 21st century challenges. We are beginning 
another wildfire season in Oregon and on the west coast. Last 
summer, smoke filled the air across large parts of Oregon and 
California, and certainly had a negative impact on air quality. 
The Clean Air Act was last updated in 1990. Does this nearly 
30-year-old statute stand up in the face of the issues the EPA 
confronts today? The EPA itself has never been authorized by 
Congress--is it time for us to do so?
    I thank our witnesses for being here today and hope that we 
can have a constructive conversation about the future and 
mission of the EPA.

    Ms. DeGette. I thank the gentleman.
    The Chair now asks unanimous consent that the Members' 
written statements be made part of the record.
    Without objection, so ordered.
    And the committee will now stand in recess until 11 o'clock 
sharp.
    [Recess.]
    Ms. DeGette. The hearing will come to order, and the Chair 
will thank everybody for their comity and welcome Ms. McCarthy, 
who has had quite a morning of travel to get here, and we 
appreciate it.
    I now want to introduce the panel of witnesses for today's 
hearing: Ms. Gina McCarthy, Administrator of the U.S. 
Environmental Protection Agency from 2013 to 2017; Governor 
Christine Todd Whitman, Administrator of the U.S. Environmental 
Protection Agency from 2001 to 2003; Mr. William R. Kelly, the 
Administrator of the U.S. Environmental Protection Agency from 
1989 to 1993.
    Mr. Reilly. It's Reilly.
    Ms. DeGette. Kelly. Reilly. I am sorry.
    [Laughter.]
    Ms. DeGette. Reilly. Kelly. They are all good Irish names. 
Mr. Lee M. Thomas, Administrator of the U.S. Environmental 
Protection Agency from 1985 to 1989. And I do want to again 
thank all of you for coming today.
    I know you're aware that the committee is holding an 
investigative hearing, and when doing so we have the practice 
of taking testimony under oath.
    Do any of you object to testifying under oath today?
    Let the record reflect that the witnesses have responded 
no. The Chair advises you that, under the rules of the House 
and the rules of the committee, you're entitled to be 
accompanied by counsel.
    Do you desire to be accompanied by counsel today?
    Let the record reflect the witnesses have responded no.
    If you would, please rise and raise your right hand so that 
you may be sworn in.
    [Witnesses sworn.]
    Ms. DeGette. Let the record reflect that the witnesses have 
responded affirmatively, and you may be seated. You're now 
under oath and subject to the penalties set forth in Title 18 
Section 1001 of the U.S. Code.
    The Chair will now recognize our witnesses for a 5-minute 
summary of their written statements. In front of you--I think 
you all know the drill, having testified in front of this 
committee many times--there's a microphone and a series of 
lights. The light will turn yellow when you have a minute left 
and red to indicate your time has come to an end.
    And so, Administrator McCarthy, you are now recognized for 
5 minutes.

STATEMENTS OF GINA McCARTHY, FORMER ADMINISTRATOR (2013-2017), 
   CHRISTINE TODD WHITMAN, FORMER ADMINISTRATOR (2001-2003), 
WILLIAM K. REILLY, FORMER ADMINISTRATOR (1989-1993), AND LEE M. 
    THOMAS, FORMER ADMINISTRATOR (1985-1989), ENVIRONMENTAL 
                       PROTECTION AGENCY

                   STATEMENT OF GINA McCARTHY

    Ms. McCarthy. First of all, I want to send my thanks to 
Chairman Pallone and Ranking Member Walden for holding the 
hearing, Chair DeGette and Ranking Member Guthrie for asking me 
to speak today about the important work of EPA, and I apologize 
for keeping everybody waiting. I appreciate it very much that 
you waited for me.
    I have spent all of my professional life working to protect 
people from the dangers posed by pollution. As a kid, I could 
literally see, taste, and feel pollution.
    I can remember my third-grade classmates and I at St. 
John's Elementary School, running to shut windows when the 
stench from the Plymouth Rubber Company started wafting in the 
windows.
    What amazed me most was that the nuns never stopped 
marching us through our times table, even when we were holding 
our noses.
    It wasn't until years later when I finished graduate school 
and became the first full-time Board of Health agent in my 
hometown that I figured out just how many people in and around 
that plant had died from brain cancer.
    And it was only 12 years or so after that when a dear 
friend of mine died of brain cancer and I wondered whether her 
classmates had just been a bit slower than me at shutting the 
windows.
    I know pollution kills, and it is not an equal-opportunity 
killer. It attacks our children and the elderly, the poor and 
the powerless. That's why environmental statutes have been 
enacted to provide layers of protection between pollution and 
the people that we love, so they have the fighting chance to 
live healthy lives.
    And for nearly 50 years we have been so lucky to have 
dedicated public servants at EPA who are smart and amazing 
human beings that we can rely on to implement those laws, and 
political leaders like the three that I am sitting with today 
who help to lead the agencies.
    And I am here today for one reason and one reason only, and 
it is not to weep about all my precious rules being rolled 
back, although I admit that the constant rollback is beginning 
to tick me off a bit, maybe even more than just a bit.
    But this is not the real message for me this morning. I am 
here to remind the political leadership at EPA that what they 
do matters, and it is time for them to step up and to do their 
jobs.
    So just do your jobs. Right now, this administration is 
trying to systematically undo health protections by running 
roughshod over the law, by obfuscating the science while only 
paying lip service to public disclosure and transparency, and 
that is just not good enough.
    EPA's mission is to protect public health and the natural 
resources that we all depend on. EPA's success is measured in 
human lives saved, fewer kids with asthma attacks, and how well 
we protect those most vulnerable from human exposures to 
pollution and arm the public with information and opportunities 
so they can live better, healthier, safer, and more just lives.
    That is worth standing up for, and I am here to ask the 
committee to hold EPA accountable to its mission and its duty 
to American families across the country who fully expect that 
laws will be implemented, science will be followed, and people 
will be given a chance to engage in decisions that matter to 
them and their children and their future.
    Right now, it feels like the fox is minding the henhouse. 
EPA's political leadership is filled with conflicts that put 
special interests and former clients ahead of our kids and 
hard-working families.
    Ethics investigations are ongoing across the Agency while 
EPA rollbacks and divestments continue, with science being 
sidelined, policies not being publicly vetted, and efforts 
ongoing to change the way the Agency conducts its business, and 
it's all designed to mask increases in pollution and to deny 
health benefits of pollution reductions.
    What does this all mean? Well, if we allow more pollution 
to be emitted, if we stop supporting and listening to the best 
available science, and if we start limiting EPA's ability to 
monitor and enforce pollution standards, then we are putting at 
risk the health and the future of every single child in our 
country.
    And make no mistake, our children are watching, and we need 
to deliver for them, especially when it comes to climate 
change, which has the ability to literally rob them of their 
future if we don't act and don't act now.
    If the American dream is about giving the next generation a 
better life than the one we have, I fear with this 
administration that dream may be slipping away, and I cannot 
sit on the sidelines and allow that to happen.
    I have a 9-month-old grandson, and I have a granddaughter 
on the way. They are my face of climate change. They are my 
moral compass and my reason to sit here today.
    So we know what we are all fighting for, and we need to 
remind ourselves of that every day. At times like these, the 
onslaught of controversies creates an overwhelming problem.
    But we mustn't lose sight of the core values that bind us 
together. Surely, one of those values must be protecting the 
health and well-being of our kids. It's time for this EPA to do 
what is right for American families and start doing their jobs.
    Thank you for your attention, and you can find many more 
specifics in my written testimony.
    [The prepared statement of Ms. McCarthy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

      
    Ms. DeGette. Thank you very much, Administrator McCarthy.
    I am now pleased to recognize Governor Whitman for 5 
minutes for purposes of an opening statement.

              STATEMENT OF CHRISTINE TODD WHITMAN

    Ms. Whitman. Thank you, Chairman.
    Chairman Pallone, Chairwoman DeGette, Ranking Member 
Guthrie, all members of the subcommittee, thank you very much 
for inviting us here today.
    I believe you have a copy of my written testimony, which I 
would like accepted into the record. Thank you.
    I am here today because I am deeply concerned that 5 
decades of environmental progress are at risk because of the 
attitude and approach of the current administration.
    I would like to touch briefly on several areas of 
particular concern to me about EPA's current direction.
    First is the Agency's retreat from science. The current 
administration has been on a steady march to reduce if not 
eliminate the role of science in developing and implementing 
environmental policy.
    There are numerous examples, but none illustrates this 
retreat better than the understandable confusions among members 
of the EPA Science Advisory Board at a meeting held just last 
week.
    At this meeting, the members of the Advisory Board were 
told that the administration's effort to roll back certain 
clean-water standards for the waters of the United States 
proposal was strictly a policy call and had little to do with 
science.
    That seems surprising to me.
    Second is the influence of the regulated community. All 
stakeholders should be heard as EPA develops policy. But none 
should be heard at the relative exclusion of any others.
    A study published last year found that the Trump 
administration has explicitly sought to reorient the EPA toward 
industrial and industry-friendly interests, often with little 
or no acknowledgment of the Agency's health and environmental 
missions.
    This is wrong. It's wrong for the Agency, it's wrong for 
the environment, and it's wrong for public health. It skews 
policymaking away from EPA's mission and diminishes public 
confidence in its decisionmaking. This trend must be reversed.
    Third is an apparent decline in concern by EPA's leadership 
about EPA's public health mission. The United States has made 
significant progress in improving the environment and 
safeguarding public health from pollution.
    But millions of Americans, especially children, continue to 
suffer from the effects caused by pollutants. That is why it is 
almost impossible for me to understand EPA's failure to commit 
to continue to fund the research projects at the 13 Children's 
Environmental Health and Disease Prevention Research Centers.
    EPA's own Children's Health Protection Advisory Committee 
has urged the EPA to continue to fund these centers. 
Inexplicably, the administration has refused to commit to doing 
so.
    Children are not small adults. They metabolize differently. 
They need different sets of protections. This isn't an isolated 
example. It's part of a troubling trend that must be addressed.
    Fourth is the erosion of the morale at the EPA. This has 
been documented by studies, and I have observed it myself. It 
is also reflected in the large number of departures of career 
scientists and others from the Agency.
    The hostility of EPA leadership to its own mission is 
driving people out and keeping new people away.
    Finally is the EPA's denial of the importance of climate 
change. The Earth's climate has always changed, but never 
before has that change been accelerated by human activity.
    We are not the sole cause of climate change, but we are 
having a real effect. But the White House is still not 
convinced and is reportedly going to require certain Federal 
scientists to debate whether the widely held accepted 
scientific consensus on climate change is correct.
    These researchers are concerned that participating in such 
an exercise might harm their credibility and their careers. And 
yet, they stand to be forced to participate.
    Putting the administration's doubts aside, I am especially 
concerned about the effects of climate change on the world's 
oceans. As a former Governor and lifelong resident of a coastal 
State, I cannot help but focus on the damage climate change is 
doing to our oceans.
    Oceans bear the brunt of climate change. From the sea level 
rise, growing acidification, and coral bleaching to increased 
coastal flooding, expanding dead zones, and an increase in 
marine diseases, our oceans are in trouble, and what threatens 
the health of our oceans threatens life on Earth.
    Climate change is real, and the administration is 
abdicating its responsibilities by denying it.
    Madam Chair, members of the committee, there is no doubt in 
my mind that under the current administration the EPA is 
retreating from its historic mission to protect our environment 
and the health of the public from environmental hazards.
    Therefore, I urge this committee in the strongest possible 
terms to exercise Congress's oversight responsibility over the 
actions and directions of the Environmental Protection Agency 
in the areas I have raised, and especially when it comes to 
climate change.
    Thank you, and I look forward to taking your questions.
    [The prepared statement of Ms. Whitman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. DeGette. Thank you so much, Governor.
    I am now very pleased to recognize Administrator Reilly for 
5 minutes for an opening statement.

                 STATEMENT OF WILLIAM K. REILLY

    Mr. Reilly. [Inaudible.] Congressman Guthrie, Mr. Chairman 
Pallone, Congressman Walden, thank you for the opportunity to 
appear here today. I will try not to recapitulate, though, in 
fact, I could because my prepared testimony very much tracks 
the testimony that you have just heard of two of my admired 
predecessors, or successors.
    I want to say in my 5 minutes, first of all, something 
about science. The Science Advisory Board, which has been vital 
through several Administrators, was particularly important to 
mine when I asked in the early weeks of my term that they rank 
the priorities in terms of health and ecology to the people of 
the United States--what are the most serious threats--and then 
estimate the degree to which the budget priorities of the 
Agency corresponded to those priorities.
    They did that, and we followed that as a template 
throughout, and I think the last time I acted on one of their 
recommendations it was that we pay more attention to indoor 
air. And so we declared side-stream smoke a Class A carcinogen.
    Within 1 year, almost 500 communities in the United States 
enacted laws forbidding smoking indoors. We didn't have the 
statutory authority to regulate that. Peculiarly, we regulated 
the air where people spend 10 percent of their time, not where 
they spend 90 percent of their time.
    But that is a measure of the degree to which the people of 
the United States trusted EPA and trusted the science. That is 
a vital jewel of our system.
    It is a characteristic of the EPA historically. It is at 
risk. Say no more about it now, but I would love to talk about 
it. There are other things that EPA has done without having any 
particular regulatory authority to move on it. Energy Star is 
the best example.
    I recall talking to one of the large developers in 
California who built Dodger Stadium and he said, ``You know, 
the most powerful regulation that I've ever encountered that 
you have is not even a regulation--it's Energy Star.''
    Can't get a loan for a significant building in California 
if it's not Energy Star. The EPA created that as part of its 
responsibility, in essence, for being the environmental 
conscience of the country.
    Second point I want to say is, with respect to oversight, I 
think there are a number of important measures. There's budget 
and staffing, and I compliment the previous Congresses of the 
last 2 years for not accepting the proposals to gut EPA's 
staffing by a third and its budget by a third, and maintaining 
the amount of support, the resources available to the Agency, 
for its vital missions at just about where they were.
    It's significantly below in inflation-adjusted terms where 
it was in my time. But it's sure a lot better than what the 
administration proposed.
    Budget and staffing, enforcement numbers, regulatory 
justifications--these are the measures of integrity of a 
regulatory agency which fashions itself in deregulatory mode.
    Look at the justifications for the mercury rule, the 
methane rule, the coal ash rule, the waters of the United 
States. The Administrator said in his testimony and 
confirmation that they are very proud of having some 33 major 
regulations or deregulations efforts proposed or completed.
    Look at the language that justifies and explains those 
measures. Look for the environment and health and ecology as a 
priority. They are invariably presented in terms of their 
economic advantages, and he said that they in fact would reduce 
by $2 billion the burdens on industry to conform to those 
rules.
    With all due respect, EPA is supposed to pay attention--and 
tries to, with its cost/benefit--to the economic impact of its 
regulations. But the environment health come first. They don't 
even come first in the justifications for most of the actions 
affecting the matters I described.
    Finally, I just want to say something relative to the 
future. As we address, if we ever do--and I certainly hope that 
we will do it in this Congress--the climate challenge, it will 
be vital to have the Environmental Protection Agency play a key 
role, I think, both in mitigation and in adaptation.
    Therefore, I am particularly mistrustful of the proposal to 
have a $40 carbon tax associated with a group of very 
respectable people, progressive people concerned about the 
environment, and a carbon tax, I think, is a positive thing. I 
don't think $40 is anywhere near what it's going to have to be 
to really transform behavior.
    But the fine print says that EPA would be removed--its 
regulatory authority--from any actions affecting climate if 
that proposal were enacted.
    By the same token, so would the courts. Well, the two 
Federal institutions that have addressed the climate problem 
are EPA and the courts, and to immunize major emitters for a 
$40 tax is, in my view, very unwise, and I would keep a close 
eye on the efforts to remove the authority--the regulatory 
authority--from the Agency, the one Agency that has really 
tried to address that problem.
    Ms. DeGette. If you could sum up.
    Mr. Reilly. I guess I've run out my clock, Madam Chair. I 
appreciate your time. But I want to say how much I respect and 
admire the attention that you are paying to oversight of EPA. 
There has never been a time when it was more urgently needed.
    Thank you.
    [The prepared statement of Mr. Reilly follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Ms. DeGette. Thank you so much, Administrator Reilly.
    And now I am pleased to recognize you, Administrator 
Thomas, for 5 minutes for an opening statement.

                   STATEMENT OF LEE M. THOMAS

    Mr. Thomas. Thank you. Chair DeGette, Ranking Member 
Guthrie, and other members of the committee.
    I appreciate the opportunity come and talk about the 
mission of EPA, and particularly to talk about the role of this 
committee as far as oversight is concerned.
    You know, I was at EPA for 6 years, first as Assistant 
Administrator, then Administrator, from '83 to '89. At that 
time, I went into business after 20 years in government. I've 
been in business for 30 years, and I have directed companies, 
particularly in the natural resource area and industrial 
manufacturing.
    So I have seen regulation and environmental regulation as a 
regulator, and I have seen it as a regulated. I can tell you in 
both instances EPA, as the Agency who in fact has the charge 
for protecting our environment, needs to be a strong, credible 
agency. The public demands it. The public deserves it.
    Business needs it. It needs a consistent, credible set of 
rules to operate by, I would say, not only nationally but 
internationally if possible. So the leadership of EPA at a 
national level and international level is critical from 
business's point of view just like it is from the public's 
point of view.
    So given this mission, you look at the law and what you 
find is Congress has given EPA over the last 50 years 
incredibly broad and deep set of authorities. Built into those 
authorities are natural tensions.
    It is the tension between the regulator and the regulated. 
There's tensions between individual rights and the community's 
rights. There's tension between cost of regulation and benefits 
to the environment and the public.
    Well, you have told EPA, ``Look, you're going to have to 
make the tough decisions. You're going to have to come to grips 
with these kind of tensions.'' Well, the only way they can do 
that in an adequate way and a somewhat balanced way--and it's 
balanced in the different laws in different ways--is if they 
have the capacity to do it: scientific capacity, economic 
analysis capacity. Have they got that kind of capacity in the 
Agency?
    Well, in fact, I am very concerned about do they have that 
capacity. Very concerned about whether they in fact are tapping 
into the kind of external scientific expertise that we always 
used that's critical to the decisionmaking in the Agency.
    I am very concerned about are they in fact doing the kind 
of intergovernmental coordination that needs to be done. We 
can't operate in this country from a business point of view if 
we've got 50 different sets of standards trying to regulate how 
we are going to operate.
    I am very concerned about, are they taking a leadership 
role as far as global issues are concerned? In many cases, I 
think they're stepping back from the global issues as opposed 
to taking on the global issues.
    So, overall, I would say this committee as far as an 
oversight committee has a critically important role to play in 
looking at those kind of issues.
    Now, let me just drop back and tell you how I got to EPA. I 
was the deputy at FEMA. It was an independent agency at that 
point in time.
    EPA, in 1983, was in the middle of chaos and turmoil. There 
were 6 different congressional committees that were 
investigating what was going on at EPA. I was asked to come 
over to EPA on a 90-day detail to help the Administrator as far 
as management is concerned. I ended up staying 6 years, so I 
must have liked it.
    But in fact what I found was the Agency at that point in 
time and the committees that were investigating the Agency, 
there was a deregulatory agenda. It was an attack on science at 
many levels as far as the Agency is concerned, and a debate 
going on about how you get scientific input or should you have 
scientific input.
    There were major requests for budget cuts of EPA. It was a 
division between political and career staff as far as the 
allegations of inappropriate contacts by the regulated 
industry. There was a lack of transparency in terms of how the 
Agency was making its decisions.
    Does all that sound familiar? Well, there's an awful lot of 
that going on today. Well, I can tell you Congress played a 
major role in highlighting those kinds of issues, bringing to 
light those kind of issues. The media picked right up on it, 
played a major role.
    I remember being told how many days in a row the Washington 
Post had a story about that on the front page every day. Well, 
what happened?
    The President said, that's not how I want this agency to 
operate. The President made a major change. He brought Bill 
Ruckelshaus back, who had been the first Administrator.
    I had the opportunity then to work with Bill for the next 2 
years, and then I became Administrator. I will tell you what 
Bill did. He put a new management team in place. He said, ``We 
are recommitted to the mission of EPA, protecting the 
environment.
    ``We are recommitted to implementing the laws the way they 
are. We are going to have the most transparent operation 
possible. We are going to pull in as much scientific knowledge 
as possible.
    ``We are going to make sure we've got capability within our 
agency to make the kind--support to make the kind of decisions 
that need to be made.''
    So this committee, in my opinion, plays a vital role in 
trying to correct what I see as some of the issues that are 
going on in that agency today.
    The other thing this committee plays a role in is looking 
at and determining where is there ambiguity--where is there 
lack of direction as far as existing law is concerned.
    We worked on a bipartisan basis with Congress. We 
reauthorized all the law related to hazardous waste. We 
reauthorized Superfund. We reauthorized Clean Water.
    We reauthorized the Safe Drinking Water Act. We did all of 
that over that 6-year period of time I was there. In each case, 
there was total----
    Ms. DeGette. If you can sum up, please.
    Mr. Thomas. There was total bipartisan support to get those 
things done. That's what EPA is all about. It needs bipartisan 
support and clear direction under the law.
    And, in fact, it needs that because, in order to make the 
tough calls it has to make, it needs broad support.
    Thank you for the opportunity to be here.
    [The prepared statement of Mr. Thomas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Ms. DeGette. Thank you so much.
    Now it's time for the Members to ask you questions. I want 
to thank all of you for your opening statements. The Chair will 
now recognize for 5 minutes.
    As I noted in my opening statement, I am deeply concerned 
about the direction of the EPA and the Trump administration, as 
are you as signatories of the letter.
    I would like to draw on your wisdom this morning to hear 
from each of you what you think the EPA and Congress can do to 
better address the serious environmental issues we are facing.
    I only have 5 minutes. Some of you probably heard John 
Dingell say this, so I would like to channel that. So if you 
can be brief, that would be great.
    And I will start with you, Administrator McCarthy. Now, 
during your tenure, the EPA set the first-ever national 
standards for reducing carbon emissions from existing power 
plants, and this really underscored the United States' 
commitment to climate action and spurred international efforts.
    I am assuming when you said that you had a lot of 
frustrations with the Trump administration, the efforts to roll 
back those standards are one of them. I am wondering if you can 
talk about those standards and any others that you feel are at 
risk and why you are concerned about this.
    Ms. McCarthy. Well, it is not just the ACE rule, which is 
replacing the Clean Power Plan. It's not just the Mercury Air 
Toxic Standard. It's not just the car rules.
    It is basically the fact that I believe they're undermining 
the science and the law in how they are trying to roll back 
those rules.
    I do not dispute any administration coming in with 
different policies. But the challenge I think we are facing is 
they are really changing the rules of the road.
    Ms. DeGette. And why----
    Ms. McCarthy. They are not using sound science. They're not 
looking at cost/benefits. They're trying to inflate the cost 
and lower the benefits in order to justify rules that simply 
don't make sense under the law.
    Ms. DeGette. Thank you.
    And, Administrator Whitman, that kind of goes to what I was 
going to ask you about. In your testimony today, you talked 
about the importance of science, and just to let you know, when 
I took over the chairmanship of this committee I announced that 
our agenda this year was science. So perfect.
    But I am wondering if you can tell us, with respect to the 
rules that Administrator McCarthy was talking about with the 
others, why is it important for the Agency to make rules from a 
science-based perspective? It seems almost a given that we 
should look at those standards. But I think it's important to 
say why science is important, and not political impetus or 
something else.
    Ms. Whitman. Well, science underpins it all. Yes, there are 
always political considerations. Yes, there needs to be cost/
benefit analysis. It's appropriate in some places under the 
Clean Air Act.
    In others you may use cost/benefit analysis. Some you must, 
and others you cannot use cost/benefit analysis. That was part 
of the enabling legislation that determined that.
    But for the Agency--since the Agency's mission is to 
protect public health and the environment, that's based on 
science. That's not politics. That's not political. You do your 
best advice, and then the political decision is made--is 
layered on top of that.
    But, really, if you don't have access to pure science, to 
clear science--not science that is purely coming from one side 
or the other, but balanced science that is based on the facts--
you're not going to get to the kind of position that's 
protective of public health and the environment.
    Ms. DeGette. And that's the bottom line.
    Ms. Whitman. And that's why it's so critical.
    Ms. DeGette. Yes.
    Mr. Reilly, when you were Administrator, you really 
solidified the EPA's reputation as an international leader by 
working with international partners on environmental programs 
like decreasing greenhouse gas emissions.
    I am wondering if you can tell us briefly why it's so 
important for the U.S. to be an active international partner.
    Mr. Reilly. Well, first of all, we cannot alone, even as 
large and powerful as we are, solve the climate problem. We are 
the number 2 emitter in the world. China is number 1.
    In my time we dealt with upper atmospheric ozone, which the 
Chinese did not want to deal with and were planning to 
introduce some hundred million refrigerators over the course of 
the next 10 years, all containing CFCs, which would have blown 
away everything that we had.
    EPA was the key actor in dissuading them from doing that. 
We were able to do that because of EPA's own reputation for 
solid science and integrity, and I remember Secretary of State 
Baker saying to me once when we had been active in China, he 
said--and we were not allowed to go there because, at my level, 
at least, because of Tiananmen Square--he said, ``I don't know 
what you're doing with the Chinese, and I don't need to know. 
Keep it up. They love you.''
    I said, ``Well, what we are doing is addressing methane 
reduction and cement kiln pollution control and very practical 
engineering problems that are essential to their developing 
economy.''
    Ms. DeGette. Thank you.
    I apologize, but I have very little time and I do want to 
get to Mr. Thomas, and what I want you to ask is you talked 
about your role and Mr. Ruckelhaus's role in increasing the 
professionalism of the EPA and building morale.
    What have--why is that important and what have you seen in 
the recent EPA that gives you pause?
    Mr. Thomas. Well, it's critically important that the EPA 
staff understand that there's an overall commitment to the 
mission of the Agency: protection of public health and the 
environment.
    And in fact, you're going to work hard with them not only 
to ensure that there are adequate resources but you're going to 
work hard with them to ensure that their voices and the voices 
of external particularly scientists are heard in the process of 
decision making.
    It's critical if the Agency is going to have the 
credibility in its decisions that in fact will enable the 
public, the regulated community, to have confidence in what 
they're doing.
    So morale basically flows from does the staff understand 
that there is an overall commitment--are you working with the 
staff to provide them with the tools and the resources they 
need to do their job and do they in fact feel like this is an 
open and transparent agency and our decisions--and in fact our 
decisions will be supported by the public because the public 
had sufficient input into us making those decisions.
    Ms. DeGette. Thank you so much.
    The Chair now recognizes Mr. Guthrie for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chair. Thank you all for 
being here.
    And Mr. Reilly, in your testimony you mentioned rural 
America is where EPA is mistrusted. I represent the 2nd 
District of Kentucky--several rural areas, several counties. A 
lot of us represent rural America. So I am interested in that 
comment you made, and why do you think the EPA is mistrusted in 
rural America?
    Mr. Reilly. First of all, I think that the intrusiveness of 
some of the regulatory priorities, particularly with regard to 
ephemeral wetlands, impacts especially hard on farmers and 
ranchers, and they encounter controls they don't fully 
understand, and when they do they don't often agree with them 
because these are areas that may not be wet for some part of 
the year.
    Many of the States we are talking about, though, have 
already lost 90 percent of their wetlands, and wetlands, in 
fact, have critical roles with respect to habitat and species 
and the rest.
    I think it may also be true that we've got to learn better 
the lessons of things like total quality management in terms of 
how to interface with people who are affected directly by 
regulation.
    Mr. Guthrie. So, what do you think EPA could do? I know 
you're just--it sounds like you are starting to get that, but 
what do you think EPA should do to become more trustworthy with 
rural America?
    Mr. Reilly. Well, I think it's got to do a better job of 
communicating the validity of some of the priorities that they 
have and particularly how they act to enforce them.
    I know the kind of anger that I've encountered in some 
parts of the country has surprised me, and it's not an accident 
that the president can say the kinds of things he said about 
wanting to break up EPA into little bits, because of the 
existing anger.
    Rural America has its own problems that go well beyond the 
environment and far beyond EPA. But any regulatory agency that 
affects farmers--I have a farm; I am on my way to my farm 
tomorrow in Illinois--is particularly dealing with an 
independent community of people who don't like to have their 
use of their land interfered with.
    That's a given, that it has to be to respect some of these 
values and administer some of these laws. No net loss of 
wetlands was a priority of my President, President George H. W. 
Bush, whom I served. But it's not a popular one.
    Mr. Guthrie. I need to get to a couple more questions. I 
understand.
    Mr. Reilly. Sure.
     Mr. Guthrie. So you also mentioned frictions are evident 
in State relations with EPA. What kind of frictions were you 
referring to in your testimony, and you said frictions are 
evident between State--in your testimony you said that--between 
State and Federal.
    Mr. Reilly. Oh. Well, the structure of our laws anticipates 
the cooperative relationship between the Federal Government and 
the States and particularly lays upon the States minimal 
requirements that EPA is in charge of overseeing.
    That is, obviously, a fraught relationship, in many cases, 
with States having either different priorities or a different 
sense of their own resources.
    We all, I think--all four of us here who had to deal with 
States that had a different opinion on the administration of 
laws, perhaps, than we had, and sometimes they were successful 
in preventing, sometimes we were. But that--I don't consider 
that in any way----
    Mr. Guthrie. You mentioned in your opening statement WOTUS 
particularly, and I know that's where--from the rural area, and 
in my rural areas a lot of people talk about the WOTUS rule 
that was coming down.
    Mr. Reilly. Yes.
    Mr. Guthrie. And, you know, the statute clearly uses the 
word ``navigable,'' and ``navigable'' means something. Does 
navigable mean something in that law, or was it something--so 
that's a friction where the Federal Government seems to be 
encroaching on what Congress clearly wanted the States to do. 
Or the word ``navigable'' means nothing.
    Mr. Reilly. My sense is that ``navigable'' is part of the 
Rivers and Harbors Act but not necessarily the authority that 
they're drawing on here.
    But I am very aware of those differences of opinion and 
certainly aware that the agriculture community sees them very 
differently from the environmental community but--and have the 
sense myself, frankly, that a hierarchy of wetlands 
characterization would probably make the administration of 
wetlands regulation more popular, or at least less unpopular in 
the rural areas.
    Mr. Guthrie. And, Mr. Thomas, I know we have to clarify 
this, and I appreciate you saying this is the committee that 
needs to be looking at this. I think Congress does need to step 
in.
    And a question: Should EPA's role with regulated entities 
be collaborative, adversarial, or impartial?
    Mr. Thomas?
    Mr. Thomas. You know, my own sense is it needs to be a very 
disciplined process that EPA uses in terms of its 
decisionmaking. There then----
    Mr. Guthrie. I am almost out of time, so I was going to add 
``and with environmental groups.'' So if you will throw that 
together. I was going to ask you that next.
    Mr. Thomas. I would like to see--I would like to see 
special-interest groups as a part of that process, having their 
input. I would also like to see a broader community having 
their input, as far as the Agency is concerned.
    And so you have got interest as far as the regulated 
community. You have got interest as far as environmental 
interests. All of that needs to have a process for input as 
part of dialogue.
    One of the things I did, by the way, is on a number of 
rules I set up a regulatory negotiation process as opposed to 
going through the typical process. We actually got stakeholders 
around the table with a mediator and we actually tried to work 
through a negotiation process.
    And in some cases we were pretty successful. It eliminated 
litigation down the road. It gave us a good rule that allowed 
us actually to implement things more quickly.
    So I think you can use different approaches. The one thing 
you don't want to do because of credibility is you don't want 
to have one side or the other side have unfettered access--
inappropriate access. It needs to be open and equal.
    Mr. Guthrie. I absolutely agree with what you just said. So 
thank you very much, and my time has expired, and I yield back.
    Ms. DeGette. Thank you so much.
    The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Madam Chair.
    I wanted to get Governor Whitman and Administrator McCarthy 
to elaborate a little more on what they think needs to be done 
by the EPA with regard to climate change and science.
    So let me start with Governor Whitman. Do you believe that 
the current administration is doing enough to combat climate 
change, and if not, what is preventing them from playing a more 
active role?
    Ms. Whitman. Well, I think what we've seen from the 
administration is actually the opposite. When they have told 
scientists that they can't participate in various meetings that 
have anything to do with climate change--that they're not 
allowed to mention climate change in many of their reports.
    It's a denial that doesn't make any sense. We need to be at 
the table. It's understood and the American people understand 
that the climate is changing.
    We can debate over how much is human action or not, but we 
certainly know that humans are having an impact on the climate 
and a serious one.
    We can't deny it. It won't go away because we are not 
talking about it and, unfortunately, what we are seeing today 
is there are a number of communications that have been put out 
and things that have been made known to staff that they are not 
to engage in climate change.
    They are not to talk about it, and it's not just at EPA. 
DOA, DOE--we've seen it at the Department of Interior. 
Throughout the administration, there's the attitude that we 
don't want to talk about climate change, and that's going to 
hamper us in the long run from our ability to truly look at the 
science and see what's underneath it, see what can we do.
    We are not going to stop it. It's a natural phenomenon. We 
are not going to stop climate change. But we need to know what 
we can do to slow it down and how do we prepare for it because 
it has very significant implications for us, New Jersey 
particularly, being a coastal State.
    But it's a national security issue, and the Joint Chiefs of 
Staff have agreed that it's a national security issue, and 
actually it was Ronald Reagan, as I understand it, who put it 
on the National Security Council agenda for the first time.
    Not that he fully believed that humans were the cause, but 
he knew it was something coming at us, it was important, and we 
needed to keep our eye on it, and I am afraid we are taking our 
eye off that ball.
    Mr. Pallone. Thank you.
    Ms. McCarthy, what are your concerns about how this 
administration is using or not using science to guide its 
climate change policies at EPA?
    Ms. McCarthy. You know, I am concerned that they are 
limiting science to disallow the Agency from looking at some of 
the best science available.
    I am worried that they are dismantling expert panels at a 
time when their expertise is needed most. I am worried that 
they're looking at programs like New Source Review, which is a 
significant permitting program to ensure that excess pollution 
isn't unfettered, and they're under the radar screen doing 
memos about this and letters to industry without any potential 
for public input.
    I am worried about many things at EPA now about 
transparency as well as the science. I am worried that they 
won't let academic scientists on the Science Advisory Board or 
expert panels, if they've taken any resources in terms of 
grants from the Agency while they're not applying that same 
standard in terms of looking at all at industry scientists and 
whether they have potential conflicts of interest.
    I am worried about the fact that there seems to be, you 
know, industry communications in a way that's not made public. 
Decisions are being made by letters, by policies, by memo that 
normally would have had public participation, and should.
    And I am worried about the fact that all of the ways in 
which the Agency has traditionally since the Reagan 
administration looked at cost/benefit is being tossed on its 
head.
    We are throwing out the rules of the road that have given 
stability, that have taught the industry that they can rely on 
how we implement and enforce. I am worried about enforcement. 
You know, enforcement now is the weakest it's been in 20 years.
    It's the lowest number ever in terms of civil penalties. 
That matters. It sends signals to the industry, and it upsets 
them. I am really concerned about--one more thing, if I may, 
because I know I am taking probably too long.
    Mr. Pallone. No, go ahead.
    Ms. McCarthy. But one other thing is that you have three 
rules: the Mercury and Air Toxics rule, you have the clean-car 
rules, and you have a decision to not actually move forward to 
regular hydrofluorocarbons, where the industries themselves 
differ.
    The regulated industry differs from the Agency outlook, and 
they're actually--look at the automakers. They're saying this 
is absolutely tremendously bad for them--for their profits, for 
their stability.
    I have never seen an administration come in and, instead of 
having new policies, their sole goal seems to reverse 
everything that has ever been done.
    The instability in industry is palpable right now. The 
signal it sends is don't worry about anything, but you also 
can't have the guarantee of a level playing field.
    Those things are important.
    Mr. Pallone. Thank you. Thank you, Madam Chair.
    Ms. DeGette. Thank you so much.
    The Chair now recognizes Mr. Walden for 5 minutes.
    Mr. Walden. Thank you, Madam Chair, and I want to thank you 
all for being here and for your service to the American people 
in the cause of better health and cleaner air and water.
    I agree with many of the statements you made regarding the 
importance of sound science. I believe we can not only support 
the use of good science or public input when it guarantees our 
preferred policy solutions. We should always support that 
science.
    I also believe it should be transparent to the public. 
We've had fights in this committee and in this Congress over 
that. I think it ought to be peer reviewed so we know it's not 
politically biased.
    I fought for that when it came to listings in ESA. Usually 
got push back by my friends on the other side of the aisle. But 
I think we are better served, whether we agree or disagree with 
the outcome, when it's actually science we can believe in and 
trust and that it's publicly available.
    And so you will always find me on that side of it. Do you 
think--I am going to ask you each kind of a yes or no--this 
isn't a gotcha, by the way. It's just a yes or no.
    Should Congress substitute its own judgment on a matter of 
scientific concern or truncate the time EPA has to review a 
matter, therefore shortcutting consideration of solid 
scientific data needed to inform policy and regulatory 
decisions before the scientific research is complete? Because 
we have those debates here.
    Should we step in before EPA and the professionals you have 
all talked about have finished their work? Can you just--I know 
it's a wide-ranging question, but maybe just right to left.
    Mr. Thomas? Yes or no.
    Mr. Thomas. There's such a thing as a precautionary 
principle, which I think underlies a lot of the decisions at 
EPA. You won't reach a point where all the uncertainty has been 
defined.
    Mr. Walden. Correct.
    Mr. Thomas. You have to begin. I did that.
    Mr. Walden. All right.
    Mr. Thomas. Hopefully we did that with the stratospheric 
ozone approach when we negotiated the Montreal Protocol. There 
was debate on that. But we used a precautionary principle and, 
fortunately, we were absolutely right.
    Mr. Walden. All right. So, but should Congress truncate 
EPA's scientific efforts? That's the question here.
    Mr. Thomas. No.
    Mr. Walden. Mr. Reilly?
    Mr. Reilly. My answer is to say that what you want is an 
Environmental Protection Agency or any agency working on a 
problem that's doing so vigorously, seriously, with an end to 
getting an answer.
    And if you have that kind of agency, then Congress should 
not substitute itself.
    Mr. Walden. All right.
    Ms. Whitman?
    Ms. Whitman. If Congress is confident in the quality of the 
science, they shouldn't step in before that's completed to the 
extent it can be completed.
    Mr. Walden. Thank you.
    Ms. McCarthy?
    Ms. McCarthy. Yes, I am with the rest. Yes, I believe that 
Congress's job is to charge the Agency, give it authority it 
believes----
    Mr. Walden. And let them finish their work.
    Ms. McCarthy [continuing]. And let the scientists make the 
science decisions. Keep politics out of it.
    Mr. Walden. Thank you.
    As I mentioned in my opening statement, the Clean Air Act 
was last updated in 1990, nearly 30 years ago. Included in the 
Clean Air Act is a requirement that the EPA complete a review 
of criteria air pollutants--including ozone, particulate 
matter, carbon monoxide, and others--at the 5-year intervals.
    Yet, EPA has regularly missed those deadlines, as you all 
know. For example, the last review for carbon monoxide took 
place in 2011, 8 years ago.
    The last review for the primary standard for nitrogen 
dioxide took place in 2010, 9 years ago, and at one point the 
secondary standard for sulfur dioxide was not updated for 39 
years, a period that included the tenures of 3 of you.
    By our count, you all missed multiple NAAQS deadlines 
during your tenures as Administrator. I think, Ms. McCarthy, 
you're on the hook for three of those, Ms. Whitman six, Mr. 
Reilly four, Mr. Thomas two.
    So my question is, because the Agency falls so far behind 
on these deadlines, by the time one criteria air pollutant 
standard is complete, EPA has to start the process over again 
or risk missing the next deadline, which you have all proved 
capable of doing.
    And the States are struggling to keep up, as they are the 
ones that subsequently have to create and enact implementation 
plans to come into attainment with those standards.
    So, having laid the predicate here, this all begs the 
question. Is the process envisioned by the Clean Air Act--
should we keep the 5-year standard and the resulting failures 
of compliance we've seen at EPA for decades, or should we 
lengthen the time period for review to 10 years or another 
appropriate length of time?
    We'll go left to right, and I've only got a minute 22. So 
Ms. McCarthy?
    Ms. McCarthy. What I would suggest is that you be careful 
doing either. You want their science to be correct. The Agency 
moves to the extent that it can as quickly as it can and----
    Mr. Walden. If the law says 5 years----
    Ms. McCarthy. Yes.
    Mr. Walden [continuing]. You missed it a couple times.
    Ms. Whitman, let's go to you.
    Ms. Whitman. If the Agency has the staffing that it needs, 
if it has the scientists it needs, it should be held to that 
standard and move as quickly as it can.
    Mr. Walden. So, given the number you missed----
    Ms. Whitman. But it's frustrating----
    Mr. Walden [continuing]. You're telling me you didn't have 
the staffing or what you needed then under the Bush 
administration?
    Ms. Whitman. No, it's frustrating because it is a tight 
time frame, and there are a lot of complicated things.
    Mr. Walden. That's why I am asking the question. Is it too 
tight? Because it seems like nobody's able to meet it 
regularly, and yet all this spills out to the States----
    Ms. Whitman. Clearly, too tight.
    Mr. Walden [continuing]. And you are chasing an old 
standard, right? So----
    Ms. Whitman. Clearly, too tight.
    Mr. Walden. All right. Mr. Reilly?
    Mr. Reilly. Mr. Walden, I think that's a smart question 
and----
    Mr. Walden. Thank you.
    Mr. Reilly [continuing]. And I think there are many reasons 
why we missed deadlines and, frankly, some of them are 
political. Sometimes the Office of Management and Budget 
intervenes to prevent that.
    Other times, many of the deadlines that are missed by EPA 
are missed because this Congress doesn't appropriate enough 
money or makes too many unreasonable demands with respect to 
the Agency.
    I think of the number of reports that we were supposed to 
file in the course of a year.
    Mr. Walden. I couldn't agree more.
    Mr. Reilly. So my answer to that question is, I would not 
alter the years requirements--the 5-year rules. I would keep 
the heat on from Congress, which you're in the best position 
here on this committee to do.
    Mr. Walden. Well, look. You have had Republican--Madam 
Chair, everybody went over by at least a minute and a half. If 
I could----
    Ms. DeGette. The Chair will give you 20 more seconds.
    Mr. Walden. Thank you.
    I guess what I would say is Republicans and Democrats have 
chaired this committee, this Congress, you had Republican and 
Democrat Presidents, we have Republican and Democrat EPA 
Administrators, and nobody has been able to meet the deadline 
the statute requires. So I am just trying to find out what the 
best one is.
    But we are out of time, so thank you.
    Ms. DeGette. The Chair now recognizes Mr. Ruiz for 5 
minutes.
    Mr. Ruiz. Thank you.
    As you all know better than anybody, EPA is truly a public 
health agency, and by setting limits on air and water 
contaminants, supervising cleanup at Superfund sites, and 
restricting harmful chemicals from being sprayed on crops, EPA 
plays a vital role in keeping our communities and families 
safe.
    Governor Whitman, you have previously written that, quote, 
``Toxic waste allowed into streams, methane needlessly leaking 
into the air, power plant and tailpipe emissions unleashed, 
restricting the use of widely accepted public health research, 
these policies hurt all Americans, regardless of party,'' 
unquote.
    So, Governor Whitman, do you believe the current EPA is 
doing enough to protect the public health? If not, what message 
do you think they are sending by rolling back vital human 
health protections?
    Ms. Whitman. I think, as I've stated before, that the 
administration currently--the EPA currently on the track that 
it's on is endangering public health and the health of the 
environment.
    I think it's critical that we continue to be protective. I 
am all for looking at regulations, to go over them from time to 
time to make sure they are relevant, that they are still 
meeting the needs, that there isn't new technology or we 
haven't found out new things, need to set another standard.
    But we have to remember that this is about protecting 
public health and the environment, and to the extent that we 
roll back regulations without a thorough scientific basis for 
those rollbacks and setting new standards, it concerns me 
greatly about what that means for the mission of the Agency.
    Mr. Ruiz. Thank you.
    Administrator McCarthy, since leaving the administration 
you have continued to advocate for public health, and now you 
are a professor at the Harvard T. H. Chan School of Public 
Health, of which I am a graduate in 2007.
    Ms. McCarthy. Want to make a donation?
    [Laughter.]
    Ms. McCarthy. Just kidding. Just kidding.
    Mr. Ruiz. Ms. McCarthy, what is the Agency not doing right 
now that, in your opinion, it must do to fulfill its public 
health mission?
    Ms. McCarthy. Well, it's not making evidence-based 
decisions. It's not following standard practice throughout the 
Federal Government on how you look at science, what science is 
acceptable, how do you do a peer review process, and it's 
certainly not following the cost/benefit rules.
    And I think that, clearly, there is an end point they're 
trying to get to that common and standard practice for how you 
do evidence-based decisions won't get them there.
    And so it's--and they are also not being transparent, which 
I think if we are dealing with public health, I want to know 
the impacts of decisions. I want to know what they mean for me 
and my family, and I think every other person in the United 
States should know what you're doing, what you're 
contemplating, and be able to weigh in.
    Mr. Ruiz. Same question to you, Governor Whitman. What is 
the Agency not doing right now that, in your opinion, is 
critical to fulfilling its public health mission?
    Ms. Whitman. Well, I agree with Administrator McCarthy. The 
real problem is the availability and the transparency of the 
science underlying the decisions that are currently being made, 
and I don't think we are seeing that.
    I don't think we are seeing the kind of evidence base that 
we need to see in order for the public to have confidence in 
the decisions that are being made or the regulations that are 
being rolled back. That is what we are missing, and that is 
what we need.
    Mr. Ruiz. Thank you.
    Governor Whitman, in your testimony you state EPA's mission 
of protecting the public health and protecting the environment 
are, quote, ``inextricably linked.''
    I find that this is particularly true with respect to low-
wealth and minority communities who are often 
disproportionately impacted by polluting industries in their 
neighborhoods.
    How important is it for EPA to support the cutting-edge 
research into the health effects of pollution, and do you 
believe the current EPA should be doing a better job in this 
area?
    Ms. Whitman. The answer is very important, and yes, to keep 
you within your time frame.
    But no, it is absolutely critical that we have the kind of 
cutting edge. That's what the Agency is about. The Agency can 
do things that the States can't. The Agency should have the 
resources to be able to have the depth of science that a State 
or an entity--a smaller entity, a community--can't do it.
    That's what the Agency is there for, to set those 
standards, to provide that kind of in-depth, scientific-based 
research and decisionmaking so that people can feel confident 
in what's being proposed and why it's being proposed.
    Mr. Ruiz. Thank you.
    It is troubling when EPA's own leadership appears to be 
undercutting the Agency's important public health mission. To 
take just one example, the American Thoracic Society wrote a 
letter to this subcommittee in advance of this hearing on 
behalf of its 16,000 physicians and scientists to express 
concerns about EPA efforts to dismiss key air pollution health 
benefits that occur from reductions in particular matter below 
current regulatory standards, and I would like to enter their 
June 10th, 2019, letter into the record for this hearing.
    Ms. DeGette. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Ruiz. Thank you very much, and I yield back.
    Ms. DeGette. The Chair now recognizes Mr. Burgess for 5 
minutes.
    Mr. Burgess. And thank you. Thanks for the recognition.
    Administrator Thomas, you were not given the opportunity to 
answer Mr. Walden's question about the 5 years being too tight 
a time line. Would you care to respond to that?
    Mr. Thomas. I reviewed four of those standards while I was 
Administrator and actually set a new standard for particulate 
matter. Initiated additional scientific work on ozone, 
reaffirmed the sulfur dioxide standard, and reaffirmed the 
carbon monoxide standard.
    I guess I would say there's extensive work that needs to be 
done before a standard is either reaffirmed or modified, and I 
think a 5-year time frame is pretty arbitrary.
    I would say that it probably takes longer than that to do 
the kind of work that needs to be done. So unless you----
    Mr. Burgess. So that would be a yes to, ``Is the time line 
too tight?''
    Mr. Thomas. That would be a yes. That would be yes.
    Mr. Burgess. OK. In the interests of time, I am going to 
move on.
    Administrator Reilly, you talked about the ephemeral 
wetlands issue. Mr. Guthrie had asked a question about somehow 
the erosion of trust in rural communities, and you referenced 
the ephemeral wetlands as being perhaps one of the reasons for 
that erosion of trust. Did I understand that correctly?
    Mr. Reilly. That's correct.
    Mr. Burgess. And, you know, I am just reminded that in a 
previous Congress or two that--not in this committee but in the 
Science Committee, there was concern about the derivation of 
the Waters of the United States rule, and Mr. Lucas of Oklahoma 
had asked whether the Agency had made the data that was used to 
craft the Waters of the United States rule public.
    He was told the information was available. But the 
statement that the information--the data requested in Mr. 
Lucas's question was publicly available in the APA docket was 
in fact false and misleading, because it was not.
    So, based on a memorandum from the United States Army Corps 
of Engineers, it's apparent those figures outlined in the EPA's 
final Waters of the U.S. rule were completely arbitrary and not 
based on science.
    So do you begin to see why the distrust in the rural 
community might exist? Mr. Lucas represents a very rural 
portion of the State of Oklahoma, and I think it's pretty easy 
to draw the nexus between those two events.
    Mr. Reilly. I am not familiar with that particular 
chronology. I just have to say that there was a time, and 
Administrator Thomas referred to it, when he established a 
stakeholders meeting on wetlands, which I ran at the 
Conservation Foundation, and everybody was present there. The 
agriculture community was well represented, the building 
community, the development community.
    And we came to a support of no net loss of wetlands, and we 
had a definition of wetlands that was acceptable to that group 
at that time, and that became the basis for the President's 
proposal and policy of having no net loss of wetlands.
    I thought that was a constructive community conversation 
that Lee initiated. I was central to it. Governor Kean of New 
Jersey was the chair, and I would encourage a similar kind of 
convocation to try to deal with what I think is quite a serious 
problem.
    Mr. Burgess. I am going to reclaim my time because I am 
running short, and they're very quick with the gavel here.
    But do you understand why, when there is a discrepancy 
between what people were told in the Committee on Science and 
what was in fact available in the public record, that it builds 
that mistrust that people have?
    And you acknowledge that inherently there was a lot of 
mistrust on the ephemeral wetlands. You know, you have talked 
about--I think Mr. Guthrie or one of the other Members also 
asked you whether it should be an adversarial role, and you 
recommended a disciplined process.
    I know in my area of north Texas, a previous Regional 
Administrator was quite aggressive in his attempts to regulate 
oil and gas production and even referenced perhaps there needed 
to be pretty harsh treatment of operators, and I think that 
earned him a quick exit from the Region 6 Administrator 
position.
    Now, his follow-on was someone with whom I got along very 
well, and we had multiple meaningful discussions, and it was a 
disciplined process.
    So, again, we are trying to put a lot on this 
administration, saying they don't follow a disciplined process. 
Unfortunately, that has been some of the track record of the 
Environmental Protection Agency.
    And I know my time has expired, so I will yield back.
    Mr. Reilly. If I could respond briefly.
    Ms. DeGette. I thank the gentleman.
    I will allow the gentleman to respond briefly.
    Mr. Reilly. Some of the issues in Texas I am very familiar 
with. I've been on the board of what was Energy Future 
Holdings, Texas Utilities, for a number of years and I--as you 
raise an issue on the environment there, one that really 
deserves attention is the methane rule.
    My experience with the oil industry and the--actually the 
mercury rule as well--is that both of those rules had been 
accommodated by Texas industries. They were not in need of 
revisiting. They had tens of millions of dollars been laid out 
to accommodate them and----
    Mr. Burgess. But if I may, though, the Supreme Court 
recommended a cost/benefit analysis must include information on 
cost in the mercury rule. That was their opinion.
    Ms. DeGette. The gentleman's time has expired.
    Mr. Burgess. Thank you. I will yield back.
    Ms. DeGette. Thank you.
    The Chair now recognizes Mr. Sarbanes for 5 minutes.
    Mr. Sarbanes. Thank you, Madam Chair. I am very excited 
that you're here, all of you, with this really crucial 
perspective on the EPA and, obviously, as you know, one of the 
most important parts of the EPA's mission is to protect public 
health and the environment, ensure that our air is safe to 
breathe, and I would like to better understand what EPA can do 
to protect our communities from the dangers of air pollution.
    Governor Whitman, you described the administration's 
rollback of environmental protections as, quote, ``an 
unprecedented attack on science-based regulations designed to 
protect the environment and public health, which represents the 
gravest threat to the effectiveness of the EPA and to the 
Federal Government's overall ability to do the same in the 
Nation's history,'' unquote.
    Can you just talk a little bit about how the rollbacks 
threaten the overall effectiveness of the EPA?
    Ms. Whitman. Well, to start with, it undermines its 
authority. It undermines its credibility. When you start to 
remove people from scientific panels that are the peer 
scientists and replace them with those who represent industry 
to a degree that it is an unbalanced advisory board, you're 
starting to undermine the credibility and the confidence that 
the public will have in the decisions and recommendations that 
come from that.
    We see this happening again and again as the Agency is 
starved for money, as was mentioned before by one of my 
compatriots here, that the fact that we are not having 
enforcement.
    It's not that you want to have penalties. It's not that you 
want to just have the big stick. But if industry doesn't know 
that in fact there will be penalties if they are bad actors, 
they will go ahead and do what they've been doing that might 
hurt public health. It is hurting public health, if that's what 
is determined.
    Those things send messages, and if those messages aren't 
clear, if those messages don't reflect a real commitment to 
protecting public health and the environment, then the Agency 
is being undermined, and public confidence in the Agency is 
undermined and our public health, bottom line, is being 
undermined.
    Mr. Sarbanes. Thank you.
    Administrator McCarthy, prior to serving as EPA 
Administrator, you ran the Office of Air and Radiation at EPA, 
which has been very busy in the current administration, as you 
know, proposing to roll back or undermine protections on 
methane, carbon, mercury, pollution, and automobile efficiency 
standards.
    Can you talk about how those rollbacks are going to affect 
public health?
    Ms. McCarthy. I would indicate to you that they are going 
to have a significant impact on public health if they are 
successful, which in many ways I question.
    We all know that carbon pollution comes part and parcel 
with other conventional pollutants, and that those pollutants 
hit--that really hurt us. They impact children. They impact the 
elderly.
    We all know that mercury is a neurotoxin, and if you roll 
back the mercury rule it makes no sense because it's already in 
place. The industry is not complaining. The science is huge to 
indicate that it is a tremendously cost-effective rule.
    The clean-car rules offer tremendous opportunities, not 
just to get cleaner cars that are cheaper for people and better 
to drive, but we also have an opportunity to significantly 
reduce ozone pollution, significantly reduce particulate 
matter. That is one of the most dangerous kind of exposures 
that we have.
    So this is a missed opportunity to both keep in place rules 
that are already effective and in the case of MATS done, but 
also to make sure that you work with industry that it actually 
promotes the kind of products that consumers want to buy and 
advances their interests as well.
    There is no reason to believe that you can't have a strong 
auto industry and continue to push it towards cleaner cars. We 
have been doing it for a decade or more. We have to keep doing 
it.
    Mr. Sarbanes. Thank you.
    And something that I find insidious is you--obviously, an 
agency can benefit from bringing in as much input from key 
stakeholders as possible--important, responsible input--and, as 
I understand it, the administration is relaxing protections 
against air pollution through memos and guidance without 
getting the input of key stakeholders, including States.
    So speak to that, why that is structurally really a problem 
in terms of landing in the right place on this regulatory 
oversight.
    Ms. McCarthy. Well, the EPA and States are in a partnership 
in order to work together to make sure that we are meeting the 
mission of the Agency, and part of the challenge that I face is 
that I know that much of the changes are being done with the 
idea that we are in some kind of cooperative federalism here.
    I don't consider it to be cooperative federalism if you 
propose consistently to stop funding States. If you propose to 
reduce the kind of laboratories and expertise that EPA has that 
no State can possibly move forward and produce.
    And so it's extremely important, I think, for States to be 
involved in these decisions. It's equally important for the 
regulated industry to be at the table, and it's equally 
important for people that care about the environment and 
advocate for it to be at the table.
    If someone asked me what I thought about the relationship, 
I think the collaborative process is OK. There is no reason why 
you can't come to an understanding of how to meet our needs in 
terms of public health and the environment while at the same 
growing the economy.
    Mr. Sarbanes. And the public takes----
    Ms. DeGette. The gentleman's time has expired.
    Mr. Sarbanes. And the public takes great comfort in that 
partnership, I will add.
    I yield back.
    Ms. DeGette. The Chair now recognizes Mr. McKinley for 5 
minutes.
    Mr. McKinley. Thank you, Madam Chairwoman.
    We can all agree that we want a cleaner environment, and we 
have--I think we have made tremendous strides in air and water 
and the environment over the years.
    However, the recent EPA has had a history of overreach and 
been misleading Congress and the American people in the 
process.
    Past Administrators promulgated rules and rulemaking that 
were in many ways aspirational and not based on science. So as 
a result, as you all know, many have been overturned in court.
    Listen, I can't relate to you. The three of you--I didn't 
serve under you. But under Gina McCarthy, I do have firsthand 
knowledge, and thank you for coming here. And so we've had 
these exchanges in the committee before, because I want to 
focus on that--the most recent.
    So under her leadership I think the EPA went rogue and it 
deviated from these historic missions that you all were talking 
about, how the EPA rose to a different level with it, and as a 
result of that we now have uncertainty and a decreased 
reliability of our electric grid.
    For example, under McCarthy's tenure, with the EPA we were 
told that policies regarding the electric grid would have 
little effect on the terms of the costs and capacity 
requirements.
    That has been proven to be untrue. On the very comment that 
she talked about was the mercury neurotoxic rule. We were told 
in this committee that the EPA rule would only cost--about 4.7 
gigawatts of power would be lost across our grid. But the North 
American Electric Reliability Corporation--NAERC--has found 
that 54 gigawatts of power have been lost, 11 times more than 
we were told by the EPA.
    And the impact on the ratepayers, it would be very small 
was the quote that was given in testimony. But yet, in Ohio the 
rates went up 183 percent to the ratepayers.
    And on this board there was an example given by the EPA 
back in 2014 that said this would be the impact--only 10 
gigawatts of power would be lost under this rule. But yet, at 
the end of the day it was 172 gigawatts of power were lost as a 
result of this--a third of the capacity for our electric 
generation.
    We were told that the EPA takes into consideration, as you 
all did, the ramifications of the proposals on the impact on 
communities. But across America, under the Obama administration 
83,000 coal miners lost their job across America.
    These regulations that were put into effect based on 
ideology, not science, they were--I think they caused 
uncertainty. The Sammis plant is another example, in Ohio. They 
met all the rules, $1.8 billion was invested, and then under 
this recent EPA another rule was promulgated as soon as that 
was done. They said they're done. They're retiring their plant, 
after all that money was invested with it, and the taxpayers 
are going to have to take care of it.
    Plants in Virginia and California were fine by the EPA for 
operating at the direction of FERC. FERC says you have to 
operate, and they did. Then they got turned around under the 
recent administration of the EPA. They were fined.
    So, look, if they had just--in your words, if the EPA had 
just done its job, the power grid would not be at risk today in 
America and therefore President Trump and Rick Perry would not 
have to be putting forth their efforts to try to restore that 
balance with it, because the Department of Energy, the 
Institute for Energy Research, ISO New England, all have 
concluded our power grid is at risk.
    It is unreliable. Therefore, continue--I think Congress 
needs to have dependable, credible data coming from the EPA 
from which we can do it, not ideologically driven, and we need 
to keep focusing on carbon capture.
    But I understand today that many of you are unhappy with 
the direction of the President's EPA. I think we are entitled 
to have credible, reliable information from which to make a 
conclusion, and I would hope--Mr. Reilly, if I could start with 
you. Would you agree that we should have credible, dependable 
information from which we can make set policy?
    Mr. Reilly. Yes, sir. I think all of us have said today 
that we believe in more transparency.
    Mr. McKinley. Mr. Thomas, would you say--is there a way--
when you were there at the administration, did you find--what 
magic did you have to be able to work collaboratively with DOE 
so we didn't have--because back then we didn't have grid 
insecurity. How did you work with the DOE to make sure that our 
grid was reliable?
    Mr. Thomas. You know, we didn't spend much time working 
with DOE back in those days. I will tell you what we did, 
though, across all the Cabinet agencies. The way the President 
operated is, you had a lot of interaction in the Cabinet 
process. He operated like I would if I was chairman of a 
company and was having my board of directors. That's the way he 
did.
    So there was an awful lot of communication back and forth 
about issues. I don't recall the grid and the reliability of 
the grid coming forward as an issue that we were trying to deal 
with.
    Mr. McKinley. Thank you. I yield back.
    Ms. DeGette. The gentleman's time has expired.
    The Chair now recognizes Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Madam Chairwoman.
    Administrator McCarthy, do you want to take some time to 
just respond before I move on with my questions?
    Ms. McCarthy. Thank you. Just very quickly. You know, the 
Mercury and Air Toxic Standard was put in place because mercury 
is a neurotoxin to our kids, and it's found almost in every 
lake and stream in the United States of America where we have 
fish advisories.
    And we took a look at it. We estimated costs. We estimated 
benefits, and years later, now that it's done we totally 
overestimated the cost and by orders of magnitude 
underestimated the benefits.
    We are in great shape in terms of mercury emissions. They 
have dropped 85 percent. And so I am proud of that rule. I 
think we did it right. I don't think it has anything to do with 
any instability in the grid that I certainly have read out.
    But it should be something we celebrate because we have 
healthier kids today. We have fewer fish advisories, and we 
made a difference with that rule.
    Mr. Tonko. Thank you. Thank you.
    Environmental protection is fundamentally about how to use 
good science to understand and reduce threats to public health. 
As we have, unfortunately, seen, the Trump EPA has actively 
worked to weaken science at the Agency by blocking reports from 
being published, ignoring Agency scientists, eliminating key 
expertise on science boards, and proposing a rule which would 
restrict data available in the regulatory process.
    So I would like to ask some questions to better understand 
the implications of this administration's treatment of science.
    Governor Whitman, I will start with you. You state in your 
testimony that this attack on science at EPA is, and I quote, 
``unprecedented and represents the gravest threat to the 
effectiveness of EPA.'' You also fault this administration for, 
and I again quote, ``using ideology to drive environmental 
policy instead of letting science drive policy.''
    So, Governor, from what you have observed, is EPA's current 
culture allowing scientists to speak up on issues like 
scientific integrity without pressure or fear of retaliation at 
the Agency?
    Ms. Whitman. No. From what I have heard from members of the 
EPA who are still there, the best thing is to keep your head 
down. If you have something that you believe is contrary to 
where you think the administration wants to see the Agency go, 
then you have to be very careful about how you come forward 
with it, if you do at all.
    And so that is not, I don't--I believe that is not healthy. 
It's not good for the environment at the Agency itself, and it 
is not good for us in getting transparency and understanding 
what really is behind some of the issues that we face today.
    Mr. Tonko. I would say it's tragic for the American public.
    Administrator McCarthy, EPA's scientific integrity policy 
states that it is, and I quote, ``essential that political or 
other officials not suppress or alter scientific findings.''
    What do you think are the most fundamental flaws in how the 
current EPA is handling science, particularly as it relates to 
issues such as climate change?
    Ms. McCarthy. Well, I think that one of the--this is an 
area where I would really ask the attention of the committee in 
terms of oversight.
    From what I can understand from outside, not only is the 
Agency trying to add doubt and fuel doubt on climate change, 
but even some of the actions they're doing, for example, 
actions that they're taking to squish together the 
decisionmaking under national ambient air quality standards and 
decide that we are going to shortcut the process by including 
cost in the analysis on what's healthy air, that is just 
abominable.
    It's not the process under the law, and it shouldn't be 
tolerated, and I think that right now you see political 
appointees that are reviewing on grants these days.
    One of the things that political appointee reportedly said 
is, he going to look for phrases like ``climate change,'' so 
you see the entrance of political interests into decisionmaking 
in the Agency. That cannot happen.
    Mr. Tonko. Thank you.
    Mr. Reilly, you actively engaged EPA's science apparatus as 
Administrator and recently urged Administrator Wheeler to 
reconstitute a credible science advisory committee.
    Mr. Reilly, what can EPA do to establish the Agency's 
scientific credibility?
    Mr. Reilly. Sir, you start, I think, by filling some of the 
positions that are currently empty and have been from the 
beginning of the administration, such as the Assistant 
Administrator for Research and Science.
    That is a key role, and it ordinarily is the chief staff 
person who serves within the Agency for the composition of the 
Science Advisory Board, for convening them, for organizing 
their material, and so forth.
    The quality and distinction of scientists is absolutely 
crucial to the trust that people have and the recommendations 
they make relative to priorities. That has to be established by 
making clear that the people are predominantly independent, 
that they are respected in their fields, that they have 
distinguished themselves very significantly, typically in each 
of their fields.
    It is not encouraged by taking a predominant number of them 
from roles where they have previously advocated for business 
interests rather than environmental or health-related reasons 
or ecological reasons.
    It is, I think, a profound mistake----
    Ms. DeGette. Excuse me. The chairman's time has expired.
    The Chair now recognizes Mr. Duncan for 5 minutes.
    Mr. Duncan. Thank you. Thank you, everyone, for being here. 
I think Mr. Thomas is from the great State of South Carolina. 
Welcome.
    Governor Whitman, you mentioned in your testimony that, 
over the past 37 years, the United States GDP grew by 165 
percent while total emissions of the 6 major pollutants dropped 
by 67 percent.
    You alluded to the fact the United States alone cannot 
reduce the contributions human beings around the world are 
making to the growing threat of climate change.
    Between the years 2005 and 2017, the United States' 
electricity sector had CO<INF>2</INF> emissions drop by 3.9 
billion metric tons. During that same period of time, China's 
carbon emissions increased by 4 billion metric tons per year. 
Per year.
    And we can't adopt all of these policies that drive up the 
cost of electricity while countries like China do absolutely 
nothing. According to the International Energy Agency, Germans, 
which have moved toward more renewables, Germans pay, roughly, 
three times the amount that Americans pay for electricity due 
to government restrictions on carbon emissions.
    So if we move toward these policies, then average American 
families' electrical rates will go up. If we follow the 
policies of Germany, which the Paris Climate Accord was pushing 
us toward, we would see the average electrical bill for the 
average American family triple.
    Are you OK with that? It's a yes or no question.
    Ms. McCarthy, are you OK with the average American 
electrical bill tripling? That would be a yes or no.
    Ms. McCarthy. I am not at all aware that moving to clean 
energy consistent with climate change----
    Mr. Duncan. Ms. Whitman?
    Ms. McCarthy [continuing]. Needs is increasing----
    Mr. Duncan. Yes or no.
    Ms. McCarthy [continuing]. Electricity prices.
    Ms. Whitman. I don't believe it's a yes or no question, 
sir, because I don't think that that's going to be the outcome 
if we go to clean energy or utilize our nuclear energy that we 
have today.
    Mr. Duncan. Look, these aren't my numbers. This is the 
International Energy Agency saying that Germans pay, roughly, 
three times. If we move--it's been proven. We've had testimony 
in this committee that----
    Ms. Whitman. We are not Germany, and I have more faith in 
our ability to improvise.
    Mr. Duncan [continuing]. The rates will go up. So, no, we 
are not Germany but bottom line is electrical rates will go up 
and, as a percentage of income, lower-income families will pay 
more as a percentage of their income for electrical rates.
    We just need to be careful as we continue this push towards 
more expensive electricity, which wind and solar truly is. And, 
look, I am an all-of-the-above guy.
    But let me tell you what will lower the carbon emissions 
for this country. That's nuclear power, because right now in 
this country 56 percent of our carbon-free emissions come from 
nuclear power. In South Carolina, my home State, 96 percent of 
our carbon-free emissions come from nuclear power.
    Would you all agree, as the Governor of Connecticut 
recently admitted, that if they want to meet their attainment 
goals for carbon-free emissions and lower their carbon 
footprint, they need to keep their nuclear power plants that 
they were thinking about decommissioning--they need to keep 
those online and have them--license renewed.
    So would you all agree with me nuclear power ought to be a 
part of the mix? I see all the heads shaking. OK.
    Ms. Whitman. Absolutely, and small modular reactors offer a 
great deal of promise for our nuclear force, going forward.
    Mr. Duncan. OK. So I agree, nuclear power, I think small 
modular reactors, molten salt reactors, new technology, Gen 5, 
Gen 6, all these things that are being talked about should come 
online.
    But nuclear waste sits at 121 nondefense sites around this 
country--121 commercial reactors. Two on the shores of Lake 
Erie in Ohio. There are six in Illinois. There's one sitting in 
my district on the shores of Lake Keowee, a beautiful clear-
water lake.
    So we know there is a byproduct of nuclear waste. Let me 
ask you this: Should the Nation have a long-term repository, 
Ms. McCarthy, for nuclear waste? Or should it sit at 121 sites 
around the country?
    Ms. McCarthy. I am really not prepared to answer that 
question. I believe that the repositories need to be safe 
wherever we keep them. I've helped with the decommissioning of 
two----
    Mr. Duncan. Should it sit at 121 sites on the shores of 
Lake Erie and places like that, or should it be in a long-term 
repository?
    Ms. McCarthy. Well, that's what the law indicates, is it 
should go to a central repository.
    Mr. Duncan. Ms. Whitman?
    Ms. Whitman. The law calls for it, and we have a site.
    Mr. Duncan. Mr. Reilly?
    Mr. Reilly. I think the--there are ample opportunities to 
store that waste. I've always seen it as a technical problem. 
It's not an insurmountable one.
    We've made too much of it, and I think the--would that the 
repository in Nevada had more room, but it ought to be filled 
up before we go anywhere else. But then I think we ought to if 
we have to.
    Mr. Duncan. About out of time.
    Mr. Thomas?
    Mr. Thomas. I really agree with you on nuclear power, and 
yes, I think there ought to be a central repository.
    Mr. Duncan. So the committee will understand that these 
folks agree with us that nuclear power ought to be a part to 
lower our carbon emissions. It plays a big part of that.
    There is a byproduct, and we need a long-term repository 
for that nuclear waste or it will sit in our home States, in 
our districts, with the possibility of problems. We ought to 
send it to Yucca Mountain.
    I yield back.
    Ms. DeGette. The gentleman's time has expired.
    The Chair recognizes Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. I thank the chairwoman.
    So there's been some discussion about making sure that the 
facts are right and that things are reported correctly, and I 
have been very troubled by what we've seen in regard to what 
the President said when he was running for office, that he 
would break the EPA into little tidbits and that he had no 
respect, essentially, for the work of the Environmental 
Protection Agency, and I think one of the ways that we've seen 
that evidenced is some of the language that has been taken off 
of the websites.
    And if we are talking about truth, we heard Mr. McKinley 
talking about facts and truth or whatever on the--that it 
wasn't there.
    But it seems to me that what we've seen is a scrubbing of 
any mentions of climate change, and this is from an article in 
Time magazine--actually, Administrator Whitman, you have been 
quoted in that article--and some of the language that's been 
scrubbed definitely has to do primarily with climate change.
    Let's see, some of the things--the EPA site is now riddled 
with missing links, redirecting pages and buried information. 
Over the past year terms like ``fossil fuels,'' ``greenhouse 
gases,'' and ``global warming'' have been excised, even the 
term, quote, ```science' is no longer safe.''
    I know you were interviewed for this article, which 
happened last year, and I just wondered if you wanted to 
comment on how--let's say you're a student and you want to find 
out more about these issues. Is this a reliable website to go 
to?
    Ms. Whitman. There are a variety of websites. That's one of 
the things the internet gives us. But, unfortunately, we find 
that people don't go to multiple sites. They want to go to one 
site, and with the way that----
    Ms. Schakowsky. No, but I am concerned about the official--
--
    Ms. Whitman. Right. I was going to say and the way, 
unfortunately, that the site seems to be being managed now at 
the Environmental Protection Agency, it doesn't give them the 
confidence that that presents the whole story and that they're 
getting everything.
    Ms. Schakowsky. Very concerned about that. Just even more 
recently, and I was just putting together some information, 
there was a scientist who--Dr. Rod Schoonover, a senior analyst 
for the Bureau of Intelligence and Research Department, who was 
giving testimony to the Intelligence Committee. This is 
unclassified information, but there are all these tracked 
changes that wanted to take out things like in the word 
``climate change''--take out the word ``change.''
    And according to a New York Times article--and I want to 
put all these things in the record--that the White House tried 
to stop State Department senior intelligence analysts from 
discussing climate science in the congressional testimony this 
week.
    He was able to give the testimony--this is new. But if you 
look at--and that's why I want to put it in the record, Madam 
Chairman, both the statement that he wrote and then the one 
with the tracked changes that they wanted, to put that into--
these are public statements.
    These are public statements. I have to say that because it 
was for the Intelligence Committee. And this--oh, no. Time goes 
so fast. I am concerned about the number of people that are 
leaving the Environmental Protection Agency, and I am 
wondering, Administrator McCarthy, if you could comment on 
that.
    Ms. McCarthy. Yes. There has been a significant number, 
probably a couple of thousand at this point that have left the 
Agency. I am confident, however, that many of the great career 
staff are sticking it out as best they can.
    But they're in an uncomfortable situation of not being 
respected, of being under threat of being moved if they don't 
do what the political leadership wants.
    I think they're worried not just about what they can and 
can't say or what you can and can't find on their website. 
They're concerned that you have a repeal of the clean power 
plan and a reproposal that literally will increase greenhouse 
gas emissions. If you don't have it, either one, you will be 
better off.
    Ms. Schakowsky. If I could just make one final comment that 
the greenhouse gas emissions increased in 2018 in the United 
States and at the highest level around the world as well. We 
are going in the wrong direction.
    Ms. DeGette. The gentlelady yields back.
    The Chair--without objection, the documents--the New York 
Times article dated June 8th, 2019, and the two statements for 
the record by Dr. Rod Schoonover are introduced into the 
record.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. The Chair now recognizes Mr. Soto for 5 
minutes.
    Mr. Soto. Thank you, Madam Chairwoman.
    What I am hearing from all of you today--and thank you all 
for your service to protect our environment--on the domestic 
front, we see an antiscience, propolluter EPA that fosters a 
culture of silence and has a Green Inquisition going on. So 
thank you for that testimony. I hope Americans across the 
Nation understand that.
    On the world stage, we see a retreat from international 
leadership since we are the only country in the entire world 
not in the Paris Climate Accord, or at least there's been a 
notice to withdraw us, and, of course, we've passed our bill 
out to get back in.
    But I want to talk a little bit about ceding international 
leadership from the EPA. We are seeing consequences of global 
warming, including through more extreme weather, rising seas, 
and diminishing Arctic ice.
    And last week, the State of Global Air 2019 Report was 
released, which found that air pollution is the fifth-leading 
risk factor for mortality, responsible for more global deaths 
than malnutrition, alcohol use, traffic accidents, or malaria.
    Mr. Reilly, as Administrator you established the EPA's 
international office. During your tenure, EPA made great 
progress working with other countries on environmental 
priorities, and you recently stated, however, that, quote, 
``American leadership that was essential to the commitments of 
China and so vital to the success of the Paris Climate Accord 
have been effectively repudiated during the Trump 
administration.''
    In your opinion, is there a risk if the U.S. lowers 
environmental standards that other countries could follow suit 
and lower their standards?
    Mr. Reilly. Thank you, Mr. Soto.
    I cannot count the number of times that ministers from 
other countries--I specifically remember Mexico, Brazil making 
these points--that, were the United States to reduce its NOx 
standard, for example, they would do likewise.
    They already had a significantly less onerous, less 
restrictive NOx standard than we, but that would even be more 
reduced.
    That is the kind of beacon that the United States has been 
on the environment. I mentioned a little earlier that we had a 
role with China--a very effective role that finally caused them 
to decide they could forego all their 100 million new 
refrigerators with CFCs and use the substitutes.
    That happened because they saw American leadership. They 
saw what it had produced in our country. They saw that we were 
serious and we knew the issues and we were genuinely trying to 
help them do the same.
    Mr. Soto. Thank you, Mr. Reilly.
    Since I am from Florida and knowing that you serve as 
cochair of the bipartisan National Commission for the BP 
Deepwater Horizon oil spill and offshore drilling and are 
familiar with a lot of the health, environmental, and regional 
economy threats, what should EPA be doing to ensure that we 
prepare for future oil spills?
    Mr. Reilly. Well, EPA has a critical role with respect to 
oil spills. I can recall a decision that we made after the 
Exxon Valdez to not allow dispersants to kind of--to control 
the pollution, and I was told by some--it was a disputed 
issue--that the fish--if there were no dispersants and the oil 
was on the surface that the new fish, and they were just about 
to swim down from their fisheries hatcheries, would swim under 
the spill.
    That's a kind of decision that EPA went against the other 
Agencies of the Government and against the oil company, and it 
turned out to be correct, and we saved the fish harvest that 
year as a result.
    EPA has that role. It's not the central role. The Interior 
Department has the significant role on offshore drilling. But 
the EPA has an essential one.
    Mr. Soto. Thank you, Mr. Reilly.
    Ms. McCarthy, during the Obama administration you all had 
an ambitious set of standards to protect air quality--probably 
just what was needed, but we call it ambitious nowadays.
    Based upon your experience, how important is EPA's 
leadership encouraging other countries to act on climate?
    Ms. McCarthy. EPA has been, at least in my experience, 
viewed internationally as the gold standard. You know, frankly, 
right now, I am a little bit embarrassed when I talk to 
colleagues in other countries, because they don't understand 
what's going on.
    They see EPA as not making decisions consistent with the 
mission. They see EPA as backing off the rule of law or in 
terms of enforcement. They don't see us using our example to 
advance international interests.
    So we are in a little bit of trouble in terms of the 
confidence that we are providing to the rest of the world and 
the fact that our challenges today are international 
challenges.
    We can't fix climate change ourselves, and we have to have 
leadership that is ethical, leadership that focuses on the 
mission of the Agency, and I think those are issues that I 
would love to see this committee look into more closely.
    Mr. Soto. Thank you. My time has expired.
    Ms. DeGette. I thank the gentleman.
    The Chair now recognizes Mr. O'Halleran for 5 minutes for 
the questioning.
    Mr. O'Halleran. Thank you, Madam Chairwoman, for holding 
today's hearing to reflect on the direction of the 
Environmental Protection Agency with witnesses who know the 
Agency best and the Agency's important role to American 
citizens' health.
    As many of you know, Arizona's 1st Congressional District 
is unlike any other. It is home to not only the Grand Canyon 
but also many Tribal communities such as the Navajo Nation.
    In all my district's beauty, I would like to highlight an 
ongoing health and contamination issue that has plagued my 
district since 1944, 75 years, and that is uranium mining.
    During the Cold War, over 4 million tons of uranium ore 
were mined on Navajo lands. Today, over 520 of these uranium 
mines remain, abandoned and still unremediated. The EPA has 
indicated clearly that none of them are safe.
    I believe the Federal Government has an obligation to take 
swift action to right these wrongs. It is within EPA's mission.
    Since coming to Congress, I've made addressing the 
abandoned uranium mines in my district a top priority, and I 
have worked closely with EPA's region 9 office to hold the 
Agency accountable and our Government accountable.
    I will continue to do so until every mine site is fully 
remediated. Beyond the environmental impacts to local 
communities and watersheds, cancer rates have skyrocketed due 
to unsafe levels of uranium exposure from these mines.
    The public health effects from uranium mining is dangerous, 
which has led the Centers for Disease Control and the 
University of New Mexico to study the birth outcomes from 
uranium exposure within the Navajo Nation.
    Without the EPA, I don't know how we'd address this problem 
at all. I know that there is a mother that has lost eight 
children a quarter mile away from one of these mines, her 
husband, and her sister-in-law, who all lived there.
    Administrator McCarthy, I appreciate you coming before us 
today as you have most recently served as head of the Agency, 
until 2017. Under the interagency 5-year plan addressing this 
issue starting in 2014, under the EPA plan have you seen the 
Agency take the proper steps to address public health from 
toxic chemicals and other threats?
    Ms. McCarthy. I have seen the Agency utilize its resources 
as best it can to do that, but, frankly, the money isn't there. 
Frankly, we need to continue to push. You know, this issue is 
not unlike many of the issues plaguing Native Americans in this 
country.
    We simply haven't met our responsibilities, and I would 
agree with you that more money, more resources, and more action 
at EPA is necessary.
    I would just also point out that uranium mining continues 
to happen. Right now, there's a lot of in situ mining going on, 
and EPA had actually proposed a rule to try to bring some 
semblance of order to that to ensure that it was done safely.
    That rule is now sitting on the sidelines. So we not only 
have to look at what we've already contaminated but continue to 
work forward to make sure that we are not continuing to plague 
those among us with the least ability to care for themselves.
    Mr. O'Halleran. And Administrator McCarthy, we have 
Superfund sites all over America.
    Ms. McCarthy. We do.
    Mr. O'Halleran. How important is the Superfund program to 
cleaning up contaminated sites, and what can the Agency be 
doing to fully support this program and to fully ask the 
Congress for the appropriate amount of funding to do so?
    Ms. McCarthy. I think that the Superfund is extremely 
important. We know contaminated sites continue to pose threats 
to those who live around them and folks that are exposed to 
contaminants that exit those sites.
    The Superfund program is overloaded with things in the 
pipeline, not sufficiently resourced, and as of late there's 
been a lot of inclination to sort of get those ready to be 
cleaned out for economic development, which is a very good idea 
but it takes away from securing the sites that are as yet 
secured from access for individuals that would threaten their 
health and well-being.
    So it is a delicate balance about how to use the money. 
But, clearly, we are nowhere near the kind of money we need to 
get that list down, and every year we keep adding and adding 
and adding.
    Mr. O'Halleran. And have you seen any attempts by this 
administration to address those issues?
    Ms. McCarthy. They have made Superfund one of the issues 
that they talk about. But, again, I think they're talking about 
it as an economic opportunity at the end of the game instead of 
looking at how we manage exposures today to the contaminated 
sites that already exist.
    Mr. O'Halleran. Thank you, and thank you, Madam Chair. I 
yield.
    Ms. DeGette. I thank the gentleman.
    The ranking member and I will each ask one round of 
questions to wrap up, and I now recognize Mr. Guthrie for 5 
minutes.
    Mr. Guthrie. Thank you very much. I appreciate you all 
being here. It's been informative. But all of you, as former 
Administrators of a Federal Agency, each of you more than most 
understands the importance of the rulemaking process under the 
Administrative Procedures Act.
    The APA provides the roadmap for Federal regulatory 
process, and one of the cornerstones of that process is public 
notice and comment. Members of Congress make the laws, and 
Agencies write implementing regulations.
    But that is not the complete picture. Input from the public 
is another critical piece. I am going to read three questions 
and get you all to comment, if you would.
    One, do you agree that it is important that Federal 
Agencies provide the opportunity for public comment?
    Do you agree that the opportunity should be afforded to all 
stakeholders--States, Tribes, regulated community, 
environmental groups?
    So is public comment important--all stakeholders--and do 
you agree that different stakeholders can provide unique and 
needed expertise when it comes to proposed rules?
    Start with Mr. Thomas and go to the left.
    Mr. Thomas. Yes. Yes. Yes.
    [Laughter.]
    Mr. Reilly. Yes. Yes. Yes.
    Ms. Whitman. Yes. Yes. Yes.
    Ms. McCarthy. Yes. Yes. Yes.
    Mr. Guthrie. OK. That's simple. That was quick.
    I would just ask Mr. Thomas, you talked about the 
collaborative, and it really sounds like you put together and 
tried to effort a really--work together, work through these 
issues, and tried to come to the balance that we need to make 
sure we have clean water and clean air and clean soil, as we've 
talked about, but also do it in a way that's responsible and 
sustainable.
    And so, given that the same office of the EPA handles both 
compliance and enforcement, how should those two be balanced 
within that office?
    Mr. Thomas. Well, you know, I think they really go 
together, and the approach you take I think is really good 
communication.
    First you have got to have credible rules and credible 
regulations. You got to make sure the regulated community 
understands that. You got to have a really good 
intergovernmental process to work with the States.
    Then I think enforcement is a very important part of it. So 
you're educating, but you're also saying, ``If you don't follow 
the rules, there are consequences,'' and you make sure those 
consequences are felt, whether it's at a Federal level or a 
State level.
    If a State doesn't have the ability to go forward or the 
commitment to go forward, the Federal Government steps in. So I 
think it is both. Collaboration and communication, but 
ultimately accountability.
    Mr. Guthrie. OK. Thank you.
    In the couple minutes, so Mr. Reilly, I have a question. In 
a 2009 report, the bipartisan Policy Center on Improving the 
Use of Science in Regulatory Policy recommended that regulatory 
policies differentiate between questions of science and 
questions of other matters of policy.
    The question is, do you see value in having a section of an 
EPA Federal Register notice for any proposed guidance or rule 
when that action is informed by scientific studies describe the 
primary scientific questions and the primary policy questions 
that needed to be answered in drafting the rule or guidance? 
It's a long question but----
    [Laughter.]
    Mr. Reilly. And I think I lost it, actually.
    Mr. Guthrie. OK. Yes. So do you see--do you see the value--
maybe all of you can answer it. Do you see the value of EPA 
Federal Register notice for any proposed guidance or rule when 
that action is informed by scientific studies?
    Do you think that the notice should describe the primary 
scientific questions and the primary policy questions?
    Mr. Reilly. I would generally say yes. Yes.
    Mr. Guthrie. Mr. Thomas, I guess.
    Mr. Thomas. Yes, I agree with that.
    Mr. Guthrie. Governor?
    Ms. Whitman. You're going to get another yes.
    Mr. Guthrie. OK. Ms. McCarthy?
    Ms. McCarthy. Actually, I will be a little bit more 
qualified----
    Mr. Guthrie. OK.
    Ms. McCarthy [continuing]. Because there are processes 
within the Agency that are fairly exclusively science driven--
risk assessments, those types of issues. They are often 
separately managed, and where there's a public process within 
that where all of the affected parties get an opportunity to 
participate.
    But it may not be subject to public--everybody advancing 
their interests outside. So that there are times, I believe, 
when it's less fruitful to go to the general public than it is 
to rely on scientists themselves to make decisions, as long as 
that process is open and deliberate and has all the necessary 
parties.
    Mr. Guthrie. OK. Thank you, and my time is close to 
expiring, so I will yield back.
    Ms. DeGette. Thank you so much.
    In Governor Whitman's testimony, you said, quote, ``Today, 
as never before, the mission of EPA is being seriously 
undermined by the very people who have been entrusted with 
carrying that mission out,'' and that sentiment was echoed in 
some form today by all four of the witnesses.
    So I just want to ask each witness very briefly if they can 
say for the record if you have one message for this 
administration, what would it be.
    Mr. Thomas, we'll start with you.
    Mr. Thomas. I think it starts from the top with a 
commitment to the mission of EPA. I don't think that is there, 
and I think a lot of what we are talking about as far as the 
Agency's concerned are symptomatic of that.
    Ms. DeGette. Thank you.
    Mr. Thomas. So the one message is commit to the mission as 
it is defined in the laws.
    Ms. DeGette. Thank you.
    Mr. Reilly?
    Mr. Reilly. Mr. Thomas has characterized that very well, I 
think. In my own meeting with the Administrator when he was 
still Acting Administrator--no, I guess he had just been 
confirmed--I recommended beginning with science, reasserting 
the primary role of science in all of the regulatory decisions 
he was making, consulting science and making that clear and 
reconstituting the Science Advisory Board with very 
distinguished members.
    Ms. DeGette. Thank you. Thank you.
    Governor?
    Ms. Whitman. I think it's incumbent on the administration 
to commit to the mission of the Environmental Protection 
Agency, the importance of it--to recommit and restate the 
importance of it and the importance of science as being the 
underpinning of the decisions being made.
    Ms. DeGette. Administrator McCarthy?
    Ms. McCarthy. Just to add, not subtract, because I agree 
with everything that's been said. I do think that it is 
incredibly important for signals for the Agency to send that, 
when they make decisions, they talk about the public health and 
environmental implications of those decisions.
    I am tired of hearing decisions being made where we solely 
talk about how much it has reduced manufacturers' costs. That's 
not the mission of the Agency.
    Ms. DeGette. Thank you.
    I want to thank all of the witnesses, because it's really 
extraordinary and not very frequent where we have four former 
Cabinet officials--well, they should be Cabinet officials--
Administrators of one agency spanning Ronald Reagan to Barack 
Obama, and they all agree on what the mission should be for 
this very important agency to protect public health, and they 
also agree that the Agency really needs to redouble its effort 
and redouble its commitment to science.
    So this was a really powerful and important hearing. I hope 
the administration was watching, because all of you were really 
important voices, and I want to thank you.
    The first thing is we have several documents that have been 
submitted, and without objection the February 13th letter from 
Mr. Walden and Mr. Shimkus to Mr. Pallone and Mr. Tonko is 
entered into the record, and also the April 8, 2019, letter and 
the June 10th letter to me and to Ranking Member Guthrie from 
the American Thoracic Society is entered into the record. Those 
are all entered into the record.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. And I would remind Members that, pursuant to 
committee rules, they have 10 business days to submit 
additional questions for the record to be answered by 
witnesses.
    I hope that all of you can answer them promptly, and not to 
editorialize, but in a fashion much more prompt than the 
current EPA is responding to this committee's questions.
    And with that, this subcommittee is adjourned.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

                                 <all>
</pre></body></html>
